<html>
<title> - EXAMINING THE FEDERAL GOVERNMENT'S MISMANAGEMENT OF NATIVE AMERICAN SCHOOLS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]











                         EXAMINING THE FEDERAL
                       GOVERNMENT'S MISMANAGEMENT
                       OF NATIVE AMERICAN SCHOOLS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 14, 2015

                               __________

                           Serial No. 114-14

                               __________

  Printed for the use of the Committee on Education and the Workforce


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-508 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                      
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 14, 2015.....................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................    01
        Prepared statement of....................................    03
    Scott, Hon. Robert C. ``Bobby'', Ranking Member, Committee on 
      Education and the Workforce................................    04
        Prepared statement of....................................    06

Statement of Witnesses:
    Roessel, Dr. Charles, Director, Bureau of Indian Education, 
      Department of the Interior, Washington, DC.................     8
        Prepared statement of....................................    10
    Mendoza, William, Mr., Executive Director, White House 
      Initiative on American Indian and Alaska Native Education, 
      Department of Education, Washington, DC....................    17
        Prepared statement of....................................    19

Additional Submissions:
    Questions submitted for the record by:
    Thompson, Hon. Glenn, a Representative in Congress from the 
      state of Pennsylvania......................................    55
    Bureau of Indian Education, responses to questions submitted 
      for the record.............................................    58\
 
                  EXAMINING THE FEDERAL GOVERNMENT'S
                MISMANAGEMENT OF NATIVE AMERICAN SCHOOLS

                              ----------                              


                         Thursday, May 14, 2015

                     U.S. House of Representatives,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The committee met, pursuant to call, at 10:30 a.m., in Room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Foxx, Thompson, Walberg, 
Guthrie, Rokita, Heck, Brat, Carter, Bishop, Grothman, Russell, 
Curbelo, Stefanik, Allen, Scott, Grijalva, Polis, Bonamici, 
Pocan, Takano, Jeffries, Adams, and DeSaulnier.
    Staff present: Lauren Aronson, Press Secretary; Janelle 
Belland, Coalitions and Members Services Coordinator; Kathlyn 
Ehl, Professional Staff Member; Matthew Frame, Legislative 
Assistant; Amy Raaf Jones, Director of Education and Human 
Resources Policy; Nancy Locke, Chief Clerk; Daniel Murner, 
Deputy Press Secretary; Krisann Pearce, General Counsel; Lauren 
Reddington, Deputy Press Secretary; James Redstone, 
Professional Staff Member; Mandy Schaumburg, Education Deputy 
Director and Senior Counsel; Alissa Strawcutter, Deputy Clerk; 
Leslie Tatum, Professional Staff Member; Brad Thomas, Senior 
Education Policy Advisor; Tylease Alli, Minority Clerk/Intern 
and Fellow Coordinator; Austin Barbera, Minority Staff 
Assistant; Kelly Broughan, Minority Education Policy Advisor; 
Jacque Chevalier, Minority Senior Education Policy Advisor; 
Denise Forte, Minority Staff Director; and Tina Hone, Minority 
Education Policy Director and Associate General Counsel.
    Chairman Kline. A quorum being present, the Committee on 
Education and the Workforce will come to order. Good morning.
    Welcome, to our guests.
    I would like to begin by thanking Dr. Roessel and Mr. 
Mendoza for participating in the hearing.
    I must say, we are disappointed that Kevin Washburn, the 
assistant secretary of Indian affairs, declined an invitation 
to join us this morning. I think Mr. Washburn would bring an 
important perspective to this discussion, and it is unfortunate 
the public and members of the committee will not hear from him 
today.
    However, we are pleased to have a distinguished panel of 
witnesses and look forward to your testimonies today.
    Today's hearing is part of an effort to begin addressing 
the challenges facing Native American schools. In recent months 
the nation has learned a great deal about the deplorable, 
deplorable conditions affecting Native American schools. A 
crisis has been festering for decades and, thanks in large part 
to the investigative work of the Minneapolis Star Tribune and 
others, it is finally receiving the national attention it 
deserves.
    The details we have learned are shocking: falling ceilings, 
broken water heaters, electrical hazards, rotten floors, and 
rodent-infested classrooms. At a school I visited earlier this 
year, blankets hang over the doors in a desperate attempt to 
keep out the cold air.
    And I am talking cold air. In northern Minnesota, every 
winter those temperatures drop down to 20, 30, sometimes 40 
below.
    In fact, thin metal walls are all that separate students 
from harsh winters in states like Minnesota and South Dakota. 
Meanwhile, classrooms lack the most basic school supplies, such 
as desks, chairs, and textbooks.
    At a recent oversight hearing we also learned that a 
bungling bureaucracy is undermining the health and safety of 
these Native American students as well as their education. The 
nonpartisan Government Accountability Office notes that a 
disorganized bureaucracy and poor communication make it 
difficult, if not impossible, for schools to receive the 
services and support they need, and GAO warns that if these 
issues are not addressed, quote: ``it will be difficult for 
Indian Affairs to ensure the long-term success of a generation 
of students,'' close quote.
    More than a century ago the federal government promised to 
provide Native American students a quality education in a 
manner that preserves their heritage, and we are failing to 
keep that promise. If these were our loved ones going to these 
schools, there is little doubt we would march down Pennsylvania 
Avenue to demand real change.
    Jill Burcum, an editorial writer for the Star Tribune, said 
this at last month's hearing, quote: ``As a mom, I thought many 
times that I would not be comfortable sending my children to 
school in these buildings. Unfortunately, mothers of BIE 
students don't have a choice, which is why action is 
required.''
    The purpose of today's hearing is not to assign blame. 
There is plenty of blame to go around.
    Instead, the purpose of this hearing is to understand the 
root causes of these persistent challenges and to demand better 
results. That is why we are pleased to have representatives 
from the Departments of Interior and Education.
    We are especially pleased to hear from you, Dr. Roessel, 
since you and your staff are on the front lines.
    We understand the Department of Interior plans to implement 
a number of internal changes intended to fix the system. We 
welcome that effort and are interested to learn more about it.
    Questions have been raised about whether this effort will 
address the fundamental problems facing the system or simply 
rearrange the chairs at the department. Questions have also 
been raised about whether this reorganization is taking place 
in a timely manner or being delayed by the same bureaucratic 
wrangling that has plagued these schools for decades.
    The administration has a responsibility to answer these and 
other important questions and to assure this committee, 
Congress, and the country that we are finally moving in a new 
direction. These vulnerable children and their families deserve 
no less.
    In closing, I would note that there are tough challenges 
facing Native American students outside the jurisdiction of the 
Department of Interior--challenges that demand our attention as 
well. That is one reason why the Student Success Act provides 
greater flexibility to all public schools, so they can more 
effectively serve their unique student populations, including 
Native American students. Policies in place today assume every 
school faces the same set of challenges, but we know that is 
not the case, and the Student Success Act would ensure federal 
policies reflect that reality.
    Replacing No Child Left Behind continues to be a top 
priority and one that I am hopeful we will finish before the 
end of the year. However, the challenges facing these 
particular Native American students have been neglected for far 
too long by members on both sides of the aisle.
    I encourage my colleagues to avoid political distractions 
that would merely shift the focus away from these unique, 
vulnerable children. They have waited long enough for the 
Federal Government to live up to its promises.
    Every child in every school should receive an excellent 
education. That is the goal we are all working toward, and 
today's hearing is an important part of that effort.
    With that, I will now recognize Mr. Scott, the ranking 
member, for his opening remarks.

            Prepared Statement of Hon. John Kline, Chairman 
                Committee on Education and the Workforce

    Good morning, and welcome to our guests. I'd like to begin by 
thanking Dr. Roessel and Mr. Mendoza for participating in this hearing. 
We are disappointed that Kevin Washburn, Assistant Secretary of Indian 
Affairs, declined an invitation to join us this morning. Mr. Washburn 
would bring an important perspective to this discussion, and it is 
unfortunate the public and members of the committee will not hear from 
him today. However, we are pleased to have a distinguished panel of 
witnesses and look forward to your testimonies.
    Today's hearing is part of an effort to begin addressing the 
challenges facing Native American schools. In recent months, the nation 
has learned a great deal about the deplorable conditions affecting 
Native American schools. A crisis has been festering for decades, and 
thanks in large part to the investigative work of the Minnesota Star 
Tribune and others, it is finally receiving the national attention it 
deserves.
    The details we have learned are shocking: falling ceilings; broken 
water heaters; electrical hazards; rotten floors; and rodent-infested 
classrooms. At a school I visited earlier this year, blankets hang over 
the doors in a desperate attempt to keep out the cold air. In fact, 
thin metal walls are all that separate students from harsh winters in 
states like Minnesota and South Dakota. Meanwhile, classrooms lack the 
most basic school supplies, such as desks, chairs, and textbooks.
    At a recent oversight hearing, we also learned that a bungling 
bureaucracy is undermining the health and safety of these Native 
American students, as well as their education. The nonpartisan 
Government Accountability Office notes that a disorganized bureaucracy 
and poor communication make it difficult - if not impossible - for 
schools to receive the services and support they need, and GAO warns 
that if these issues are not addressed, ``it will be difficult for 
Indian Affairs to ensure the long-term success of a generation of 
students.''
    More than a century ago, the federal government promised to provide 
Native American students a quality education in a manner that preserves 
their heritage, and we are failing to keep that promise. If these were 
our loved ones going to these schools, there is little doubt we would 
march down Pennsylvania Avenue to demand real change.
    Jill Burcum, an editorial writer for the Star Tribune, said this at 
last month's hearing: ``As a mom, I thought many times that I would not 
be comfortable sending my children to school in these buildings . . . 
unfortunately, mothers of BIE students don't have a choice, which is 
why action is required.''
    The purpose of today's hearing is not to assign blame. There is 
plenty of blame to go around. Instead, the purpose of this hearing is 
to understand the root causes of these persistent challenges and to 
demand better results. That is why we are pleased to have 
representatives from the Departments of Interior and Education. We are 
especially pleased to hear from you, Dr. Roessel, since you and your 
staff are on the front lines.
    We understand the department plans to implement a number of 
internal changes intended to fix the system. We welcome that effort and 
are interested to learn more about it. Questions have been raised about 
whether this effort will address the fundamental problems facing the 
system or simply rearrange the chairs at the department. Questions have 
also been raised about whether this reorganization is taking place in a 
timely manner or being delayed by the same bureaucratic wrangling that 
has plagued these schools for decades.
    The administration has a responsibility to answer these and other 
important questions, and to assure this committee, Congress, and the 
country that we are finally moving in a new direction. These vulnerable 
children and their families deserve no less.
    In closing, I would note that there are tough challenges facing 
Native American students outside the jurisdiction of the Department of 
Interior, challenges that demand our attention as well. That is one 
reason why the Student Success Act provides greater flexibility to all 
public schools, so they can more effectively serve their unique student 
populations, including Native American students. Policies in place 
today assume every school faces the same set of challenges, but we know 
that's not the case, and the Student Success Act would ensure federal 
policies reflect that reality.
    Replacing No Child Left Behind continues to be a top priority and 
one that I am hopeful we will finish before the end of the year. 
However, the challenges facing these particular Native American 
students have been neglected for far too long and by members on both 
sides of the aisle. I encourage my colleagues to avoid political 
distractions that would merely shift the focus away from these unique, 
vulnerable children - they have waited long enough for the federal 
government to live up to its promises.
    Every child in every school should receive an excellent education. 
That is the goal we are all working toward, and today's hearing is an 
important part of that effort. With that, I will now recognize Ranking 
Member Scott for his opening remarks.
                                 ______
                                 
    Mr. Scott. Good morning, and thank you, Mr. Chairman, for 
holding this hearing. This is the second hearing in as many 
months on Indian education, but before that it had been 7 years 
since a hearing had taken place. So I am grateful that today we 
will be able to consider the full range of issues impacting 
American Indian and Alaska Native students.
    Our prior hearing focused on the deplorable conditions of 
many schools operated by the Bureau of Indian Education. It was 
important, and I am pleased that the Bureau of Indian Education 
will be sharing their plans to address these conditions with us 
today.
    And, Mr. Chairman, as this is not a partisan issue, none of 
us want to see any student going to a school in the conditions 
as you have described. Schools need to be fixed. They need to 
be fixed without delay.
    The conditions of these school buildings not only affects 
the health and safety of students, it impacts their ability to 
learn and sends a disheartening message that these conditions 
are good enough.
    We want to be clear: it isn't good enough. The students 
should not have to go to school in freezing classrooms, leaking 
roofs, exposed wires. These conditions should not persist.
    I am eager to hear from the Bureau of Indian Education 
about its recent reforms and initiatives to improve these 
unacceptable conditions.
    I am also eager to work with you, Mr. Chairman, and the 
committee to ensure that there is adequate federal funding to 
remedy these conditions. Appropriations for construction for 
BIE schools have fallen 64 percent from 2006 to 2015. This 
sharp reduction in funding has doubtlessly contributed to the 
deplorable conditions of many of the schools.
    However, as important as it is to fix these school 
buildings, we must also acknowledge that fixing the buildings 
will only solve a small part of the problem. Only 7 percent of 
American Indian students attend BIE schools; the vast majority, 
about 93 percent, attend regular public schools. Addressing the 
challenges facing these students requires a comprehensive and 
coordinated commitment across agencies.
    For that reason, I am particularly pleased that Bill 
Mendoza, the executive director of the White House Initiative 
on American Indian and Alaska Native Education, is here today. 
And I am particularly eager to learn about the important work 
of Generation Indigenous, an initiative focused on removing the 
barriers that stand between American Indian and Alaskan Native 
youth and their opportunity to succeed.
    Look forward to hearing more about this comprehensive 
approach that includes work from the Department of Education, 
Health and Human Services, and the Department of Interior.
    The Federal Government holds a special trust responsibility 
with tribal nations. Treaties, laws, and court decisions 
require the Federal Government to protect tribal lands and 
sovereignty.
    We must also provide resources to ensure the success of 
tribal communities. The delivery of educational services is 
arguable the most important resource that we can provide, and 
sadly, it is an obligation that we have not met.
    The reality is that American Indian and Alaskan Native 
children face some of the bleakest outcomes of any racial or 
ethnic subgroup in the United States. These students have the 
lowest school graduation rate, with an aggregate graduation 
rate of about 69 percent.
    When we look at the graduation rate for students in the 
Bureau of Indian Education schools, the picture is even worse. 
Barely half of the students graduate in 4 years.
    A 2011 study from the Alliance for Excellent Education 
spoke to the impact of the high dropout rate and pointed out 
that if many of the students were graduating, they would be 
earning a lot more than they are earning today. This kind of 
economic loss is a tragedy for individuals. This also impacts 
the economic future of our nation.
    There are opportunities to change things. Many tribes are 
optimistic about the work at the Department of Interior and 
through the White House initiative. However, after centuries of 
neglect, there is also skepticism.
    The long history of broken federal promises to tribes and 
their children requires Congress to be vigilant in our 
oversight, and it is important that our witnesses understand 
that we are watching and we are committed to make things right.
    So thank you, Mr. Chairman.
    And thank our witnesses for being here, and I look forward 
to their testimony.
    I yield back.

 Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Ranking Member, 
                Committee on Education and the Workforce

    Good morning and thank you, Chairman Kline, for holding this 
hearing. This is the second hearing in as many months on Indian 
education. Before that, it had been seven years since a hearing had 
taken place.
    I am grateful that today we will be able to consider the full range 
of issues impacting American Indian and Alaska Native students. Our 
prior hearing focused on the deplorable conditions of many schools 
operated by the Bureau of Indian Education. That was important and I am 
pleased that the Bureau of Indian Education will be sharing with us its 
plans to address these conditions. You should know that there is no 
partisanship on this issue. None of us want to see any student going to 
school in conditions like the ones we learned about at the last 
hearing. The schools need to be fixed. And they need to be fixed 
without delay.
    The condition of BIE school buildings not only affects the health 
and safety of students, it impacts their ability to learn and sends a 
disheartening message that these conditions are ``good enough'' for 
you. I want to be very clear: it isn't. No student should go to school 
in freezing classrooms, with leaking roofs and exposed wires. These 
conditions cannot persist.
    I am eager to hear from the Bureau of Indian Education about its 
recent reforms and initiatives to improve these unacceptable 
conditions. I am also eager to work with Chairman Kline to ensure that 
there is adequate federal funding to remedy these conditions. 
Appropriations for construction of BIE schools have fallen 64%, from 
$206.7 million in FY2006 to $74.5 million in FY2015. This sharp 
reduction in funding has doubtlessly contributed to the deplorable 
conditions of many BIE schools.
    However, as important as it is to fix BIE school buildings, we must 
also acknowledge that fixing these buildings will only solve a small 
part of the problem. Only 7% of American Indian students attend BIE 
schools. The vast majority - 93%--attend regular public schools. 
Addressing the challenges facing these students requires a 
comprehensive and coordinated commitment across agencies.
    For that reason, I am especially pleased that Bill Mendoza, 
Executive Director of the White House Initiative on American Indian and 
Alaska Native Education is here today. I am particularly eager to learn 
about the important work of Generation Indigenous, an initiative 
focused on removing the barriers that stand between American Indian and 
Alaska Native youth and their opportunity to succeed. I look forward to 
hearing more about this comprehensive approach that includes work from 
the Department of Education, Health and Human Services, and the 
Department of Interior.
    The federal government holds a special trust responsibility to 
tribal nations. Treaties, laws, and court decisions require the federal 
government to protect tribal lands and sovereignty. It must also 
provide resources to ensure the success of tribal communities. The 
delivery of educational services is arguably the most important 
resource we can provide. Sadly, it has not been an obligation that has 
been met well.
    The reality is American Indian and Alaska Native children face some 
of the bleakest outcomes of any racial and ethnic subgroup in the 
United States. These students have the lowest high school graduation 
rates, with only 69% graduating in four years in aggregate. When we 
look at the graduation rate for students in Bureau of Indian Education 
schools, the picture is even worse. Only 53%--barely half--of students, 
graduate in four years.
    A 2011 study from the Alliance for Excellent Education calculated
    the economic impact of this high dropout rate as follows:
    ``If just half of the 24,700 American Indian and Alaska Native 
students from the Class of 2010 who dropped out of high school had 
graduated, together these 12,350 new graduates would likely be earning 
an additional $147 million each year compared to what they will earn 
without a high school diploma.''
    This kind of economic loss is a tragedy for the individuals. It 
also impacts the economic future of our nation.
    There are opportunities to change things. Many tribes are 
optimistic about the work at Interior and through the White House 
Initiative. However, after centuries of neglect, there is also 
skepticism. The long history of broken federal promises to tribes and 
their children requires Congress to be vigilant in our oversight. It is 
important that our witnesses understand that we watching and committed 
to making things right.
    Thank you for being here today. I look forward to hearing your 
testimony. With that, I yield back.
                                 ______
                                 
    Chairman Kline. Thank the gentleman.
    Pursuant to committee rule 7(c), all members will be 
permitted to submit written statements to be included in the 
permanent hearing record. And without objection, the hearing 
record will remain open for 14 days to allow such statements 
and other extraneous material referenced during the hearing to 
be submitted for the official hearing record.
    I will now introduce our distinguished witnesses.
    Dr. Monty Roessel is the director of the Bureau of Indian 
Education within the U.S. Department of the Interior and 
previously served as BIE's associate deputy director for Navajo 
schools. Prior to coming to BIE, he served the Rough Rock 
Community School, a BIE-funded, tribally operated, K-12 
boarding school on the Navajo Nation Reservation as director of 
community services and then as executive director.
    Welcome, sir.
    Mr. Bill Mendoza is executive director for the White House 
Initiative on American Indian and Alaska Native Education. The 
initiative supports activities that expand educational 
opportunities and improve education outcomes for all American 
Indian and Alaska Native students. Prior to his appointment, he 
served as the deputy director and executive director for the 
White House Initiative on Tribal Colleges.
    I will now ask our witnesses to stand and to raise your 
right hand.
    Do you solemnly swear and affirm that the testimony you are 
about to give will be the truth, the whole truth and nothing 
but the truth?
    Let the record reflect the witnesses answered in the 
affirmative, as they always do.
    Please, be seated.
    Before I recognize you to provide your testimony, let me 
briefly explain our lighting system, which I understand has 
been explained to both of you already, but now you are looking 
at the little high-tech machines in front of you.
    You have 5 minutes to present your testimony. When you 
begin, the light in front of you will turn green; when 1 minute 
is left, the light will turn yellow; and when your time is 
expired, the light will turn red. At that point, I will ask you 
wrap up your remarks as best you are able.
    I have never stopped a witness in mid-testimony, and I 
won't today. We want to hear from you. But please, as you see 
those lights change, try to wrap up, because then we want to 
get to questions and answers.
    I will try to strictly enforce the 5-minute rule when we 
get into questions and comments from members of the committee, 
and we will be looking at lights there again, too, because I 
want to move it around and give everybody have a chance to be 
in the conversation.
    Okay. We are ready to start.
    Dr. Roessel, you are recognized.

 STATEMENT OF DR. CHARLES ROESSEL, DIRECTOR, BUREAU OF INDIAN 
    EDUCATION, DEPARTMENT OF THE INTERIOR, WASHINGTON, D.C.

    Mr. Roessel. Good morning, Chairman Kline, Ranking Member 
Scott, and members of the committee. My name is Monty Roessel 
and I am the director of the Bureau of Indian Education. I 
appreciate the opportunity to testify today on the reform of 
BIE.
    Prior to the development of the blueprint for reform, the 
American Indian Education Study Group examined BIE intensely. 
Many of the GAO findings were also reviewed and discovered by 
the group. Therefore, within the bureau's blueprint for reform 
and the proposed reorganization are recommendations that 
address issues of a lack of communication, a lack of adequate 
staff to oversee school spending, and a lack of clear 
accountability.
    Some examples of changes that we have already implemented 
to address a lack of communication: BIE has developed an 
electronic newsletter, a monthly webinar series on issues 
ranging from operation and maintenance calculations for 
facilities, to preparing for the new school construction 
application. BIE also holds monthly staff calls and monthly 
stakeholder calls. A directory of BIE staff and facility staff 
is now on our Web site.
    The blueprint for reform and the realignment needed to 
implement it is not a BIE plan or my plan, but it is a 
restructuring that embeds the voices of over 400 Indian 
stakeholders. Every new box on the org chart is based on the 
ideas and contributions of education and tribal leaders, 
parents and teachers, administrators, and students. These are 
not just boxes on an org chart, but ideas from the Mississippi 
Band of Choctaw, the Hopi, the Navajo, the Yankton Sioux, the 
Shoshone-Bannock, and many of the 64 tribes that have BIE 
schools.
    I understand that the GAO has said that we do not have a 
strategic plan or a communication plan and have not implemented 
any of the recommendations. I disagree.
    It must be noted that we are in the middle of tribal 
consultations. We have posted our strategic plan and 
accompanying communication plans for review. We are awaiting 
completion of tribal consultation before finalizing, but we are 
still using the outline of the plan and will post updates on 
the progress of our strategic plan this July.
    However, BIE has also taken immediate steps to ensure the 
accountability of funds at our schools. In 2014, there were 23 
overdue management decisions due to audit issues at schools. As 
of today and for the last 5 months, we have zero. We are 
finalizing a financial monitoring tool and process that will 
ensure fiscal responsibility and accountability.
    The only focus of restructuring of BIE, from my 
perspective, is to improve the academic outcomes for our Indian 
students. Every decision must contribute to this goal. In other 
words, education must be the primary function of the 
instructional leader.
    Through our reorganization we have clarified roles and 
responsibilities based on school functions. We have streamlined 
communications. We have empowered instructional leaders to have 
the tools necessary to make decisions to improve education in 
the classroom and school.
    Here is a snapshot of what the BIE reform will look like: 
In New Mexico's Isleta Elementary School, as a newly formed, 
tribally controlled school, they will receive specific tools to 
safeguard that internal controls are implemented to ensure 
clean audits, and also training for school board and effective 
governance.
    In Minnesota's Bug-O-Nay-Ge-Shig School they will receive 
additional support to continue their immersion program. From 
our recently developed native language framework they will 
receive support in better utilizing their portion of BIE's 24 
million dollars to teach native languages with an eye towards 
fluency.
    When I was associate deputy director for Navajo schools I 
instituted a district model. I realigned functions and 
clarified roles, much like you would do with any school 
district in this country.
    I sought to unify professional development for teachers. We 
developed processes and protocols for instructional rounds that 
focused on improvement, not punishment.
    What were the results? For our Navajo BIE-operated schools, 
we went from making 29 percent of our schools making AYP to 
54.8 percent of our BIE-operated making AYP. This is the design 
and philosophy we are implementing across BIE.
    It is no secret that many of our school buildings are in 
much need of replacement and repair. Fifty-eight of our school 
buildings are in poor conditions.
    With the '15 budget and our proposed '16 budget, we are 
able to finally complete the 2004 lists. As part of our reform 
efforts, we are developing a long-range school construction 
plan that is much needed and long overdue.
    In the department's '16 request we are being more strategic 
when it comes to school construction. Some of our schools only 
need a building replaced and not an entire campus. Our request 
includes component replacement in addition to full school 
replacement.
    The department is committed to improving the conditions of 
schools within BIE so all students have a safe place to learn. 
I am happy to answer any questions.
    [The statement of Dr. Roessel follows:] 
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
       
    Chairman Kline. Thank you very much, Dr. Roessel.
    Mr. Mendoza, you are recognized.

  STATEMENT OF MR. WILLIAM MENDOZA, EXECUTIVE DIRECTOR, WHITE 
    HOUSE INITITATIVE ON AMERICAN INDIAN AND ALASKA NATIVE 
      EDUCATION, DEPARTMENT OF EDUCATION, WASHINGTON, D.C.

    Mr. Mendoza. Good morning, Chairman Kline, and Ranking 
Member Scott, and the members of the committee. My name is 
William Mendoza and I am the executive director for the White 
House Initiative on American Indian and Alaska Native Education 
at the U.S. Department of Education.
    I appreciate the opportunity to testify today about the 
Initiative's work to expand educational opportunities and to 
improve outcomes for American Indian and Alaska Native 
students, including those attending tribal colleges and 
universities.
    Coincidentally, yesterday Secretary Duncan participated in 
a Native youth roundtable in Denver as a part of the 
President's Generation Indigenous Initiative. The plight of 
Native youth is an important issue for the nation and for this 
administration. Secretary Duncan has visited Indian country 11 
times, and much of what I will outline today is informed by the 
conversations he and our staff have had throughout Indian 
country.
    Throughout this administration, we have worked to implement 
a policy of self-determination and to strengthen the 
government-to-government relationship with tribal nations. ED 
understands that the best solutions for American Indian and 
Alaska Native students come from those who know these students 
best: the tribes. Since 2010, ED has held over 35 national 
consultations with tribes and tribal leaders around the country 
to seek their ideas about the education challenges they face 
and the needs of their communities.
    In December of 2014, during the White House Tribal Nations 
Conference, the President announced his Gen-I Initiative, a 
comprehensive effort designed to address the educational needs, 
physical health, mental health, and social service needs of 
Native youth. Through Gen-I, the administration is working hard 
to bolster efforts focused on Native Americans, including 
Native youth, by launching a targeted youth engagement program, 
a new demonstration grant priority through the Department of 
Education, and a continuation of the Bureau of Indian Education 
reform efforts.
    While about 8 percent of American Indian and Alaska Native 
students attend bureau-funded schools, the vast majority attend 
public schools operated by local school districts on and off 
reservations and tribal lands.
    We are encouraged by the positive progress among American 
Indian and Alaska Native students, and this is thanks to the 
hard work of teachers, parents, and students. The graduation 
rate for American Indian students has increased by more than 4 
percentage points over 2 years, the largest increase of any 
group of students.
    Unfortunately, it is still much lower than the national 
rate. The 2014 White House Native Youth Report highlights that 
there is still much more work to be done.
    The current outcomes for American Indian and Alaska Native 
students are unacceptable for this nation and the 
administration. We can and must fix this.
    The Department of Education provides support to improve 
outcomes for Native students in a variety of ways. There are 
large-dollar programs, such as Title I, for high-poverty 
schools, and Impact Aid for school districts for children 
residing on Indian lands. In addition, the department 
administers several formula grants as well as competitive 
grants designed to support the unique cultural and academic 
needs of Native students.
    Some of ED's efforts to address the needs of these students 
include a specific priority for these students in ED's new 
supplemental priorities, which are available for use in all ED 
discretionary grants.
    We also published a notice inviting applications for the 
Native Youth Community Projects, for which the administration 
is also requesting a $50 million increase in the President's 
2016 budget. The Native Youth Community Projects will fund 
culturally relevant strategies to improve college and career 
readiness for children and youth in tribal communities.
    Additionally, the White House Initiative and ED's Office 
for Civil Rights conducted a series of listening sessions 
around the country and heard testimony from Native youth on 
bullying, disproportionate discipline, stereotypes, and the 
harmful effects of imagery and symbolism.
    Moreover, the administration's Promise Zones Initiative is 
partnering closely with hard-hit urban, rural, and tribal 
communities to create jobs, increase economic activity, improve 
educational opportunities, and reduce violent crime. These 
Promise Zones currently include the Pine Ridge Indian 
Reservation in South Dakota and the Choctaw Nation of Oklahoma.
    ED's Office of Indian Education currently allocates nearly 
$2 million a year to 5 of ED's comprehensive centers, including 
one content center, to provide technical assistance to state 
educational agencies and other support targeted to improve 
outcomes for Native students.
    And interagency cooperation is vital to the success of 
these initiatives. Secretary Duncan and Secretary Jewell have 
worked together to strengthen the relationship between their 
agencies, especially regarding the Bureau of Indian Education.
    They have held several events to highlight the importance 
of Indian education, and in 2013, the secretaries convened the 
Bureau of Indian Education Study Group that Director Roessel 
mentioned to identify and take action on the systemic 
challenges facing the BIE to ensure that all students attending 
BIE-funded schools have access to a world-class education.
    The two agencies are also working together through various 
initiatives to strengthen technical assistance between these 
agencies for Bureau-funded schools. In response to the request 
from tribes, ED collaborated with DOI to provide guidance to 
tribally controlled schools on how they may use annual funds.
    I would be happy to answer any questions and there are 
expansions in my testimony.
    [The statement of Mr. Mendoza follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
       
    Chairman Kline. Thank you very much.
    Thank you both very much. We will start now with member 
questioning.
    I will start by asking--Dr. Roessel, I was listening to 
your testimony, and you said education is the goal. And Mr. 
Mendoza said the same thing, and Mr. Scott. We want these 
Native American students to be well educated.
    But you can't be well educated, in my opinion, when you are 
attending school wearing your coat and wearing your mittens and 
hoping that the blanket keeps out the 30-degree-below-zero air. 
So safety--we have got to start with safety.
    You have got collapsing roofs, leaking roofs, buckling 
floors, exposed wires, popping circuit breakers, gas leaks. 
That is totally, totally unacceptable. There is no way to get 
that education and to learn under those conditions.
    So when I was touring the Bug-O-Nay-Ge-Shig School up in 
the Chippewa National Forest in northern Minnesota, and I saw 
all of these things I said, ``Well, how can this be? Where is 
the list that shows when this school is going to be fixed?''
    And by the way, it is not that money isn't being spent. 
They are spending hundreds of thousands of dollars making 
repairs. And yet, the school is still fundamentally a metal 
pole barn with all of those safety hazards.
    So how can it be that this school has not been on the list 
for replacement? How can that be? How can you have a system 
with a school like that?
    And yet, the Bug-O-Nay-Ge-Shig High School is not on the 
list. So how can that be?
    Mr. Roessel. Mr. Chairman, the process of school 
construction within BIE and Indian Affairs within the 
department is there was a list that was created in 2004--
priority list. And currently right now, with the '15 budget we 
have enough money to build and rebuild the Beatrice Rafferty 
School. And in our proposed '16 we have finally money that is 
being asked to build the last of that 2004 list: the Little 
Singer School as well as Cove Day School.
    Indian Affairs, through DFMC--Division of Facilities, 
Maintenance, and Construction--they are in the process of 
finalizing an application to create the next list. That is the 
process that we have.
    When I was the co-chairman of the Negotiated Rulemaking 
Construction Committee prior to becoming the director, we 
viewed a lot of these schools. I have been to the Bug School 
and I have seen those deplorable conditions--and I agree, it is 
one of the biggest frustrations that we have.
    In order to repair all of our schools, that report said 
that we would need $1.3 billion. And so of course right now we 
don't have $1.3 billion. But what we do have within the process 
is to align with that new list is a plan going forward much 
like the Department of Defense did when they had a long-term 
plan to repair their buildings.
    So we are in the process of developing a 6- to 7-year plan 
to begin that process. I think we start on that road by first 
having the first Beatrice Rafferty and add two more schools--
    Chairman Kline. When--excuse me for interrupting. When 
would we see that plan?
    Mr. Roessel. We hope to have it this summer--the final plan 
that will be aligned with the new school construction list. It 
is our hope that with the new school construction list that is 
coming up, the applications are due the end of June, and then 
we will go through the review of those lists and then make it 
public at the end of this summer. And that way then we would 
have a ranking of the next list for construction and also in 
concert with our plan to move forward with our '17 budget and 
beyond.
    Chairman Kline. Well, we are looking forward to that plan, 
and I think that the Native American students and American 
people, as they are starting to learn more and more about this, 
are frustrated because we don't ever seem to get to it. So if 
you drive through to completion here and let's see this plan, 
but I am concerned because the Bug School, which I say the same 
thing, it is a whole lot easier to pronounce, that wasn't even 
on the list.
    And it is not safe. And we are spending hundreds of 
thousands of dollars to make yearly repairs. It is just not 
money wisely spent when we should be replacing the school.
    I will try to set the example here and yield back my time 
with 10 seconds to spare.
    Mr. Scott, you are recognized.
    Mr. Scott. Thank you, Mr. Chairman.
    Dr. Roessel, let me follow through on that. You said you 
needed more money. What is the status of your funding request?
    Mr. Roessel. In our '16 budget we have two areas. One of 
the things that we have done also with our budget is try to be 
more strategic, when I said we can--in my opening statement--
replace an entire school or just a component. That allows us to 
actually address more--
    Mr. Scott. Well, you said you needed more money. What is 
the status of that request?
    Mr. Roessel. Well, we have asked in the '16 budget for 
about $45 million for new school construction.
    Mr. Scott. And did it make it into the administration 
budget?
    Mr. Roessel. Yes, it did.
    Mr. Scott. Do you know what the status of it is in the 
appropriations committees?
    Mr. Roessel. No, I don't.
    Mr. Scott. I understand the Cherokee Nation, since 2002, 
has contributed $19 million to schools serving their students. 
Why did they have to put up the--was it their responsibility to 
put up this money, or were they just making up for what the 
Federal Government wasn't doing?
    Mr. Roessel. I am not exactly sure what their intent was to 
do that. Some schools do--
    Mr. Scott. Well, their schools are doing better than 
others.
    Mr. Roessel. Some tribes do provide additional funds for 
targeted areas that they have goals and priorities, such as 
maybe Native language or some specific issue like that.
    Mr. Scott. Well, their schools are doing better. Should 
they have had to have put up that kind of money, or should that 
have been a federal responsibility?
    Mr. Roessel. The federal responsibility is to provide the 
education, and through BIE we are. Programs that are above and 
beyond that I think are at the discretion of tribes and part of 
their--at their discretion.
    Mr. Scott. Okay. You indicated a significant improvement in 
schools--in bureau schools--making annual adequate yearly 
progress, but still, half are still failing. When can we expect 
virtually all of the schools to come up to standard?
    Mr. Roessel. I think in a reform effort it takes 3 to 5 
years as we move forward. I think we are taking some action 
immediately that has shown improvement.
    The focus of our reform efforts is how do you improve the 
instruction in a classroom. That is what we are trying to 
build. Everything builds upon that, even the school buildings. 
You know, how do you expect to improve instruction if the walls 
are falling around them? So it is a comprehensive approach that 
we are addressing.
    What our plan is, is you build a better system of 
instruction, a better system of leadership, a better system of 
accountability for that, and I think that is what our reform 
effort does. It does align our accountability, and in the past 
we had people doing a lot of different things. Now we have had 
clear roles and responsibilities.
    Mr. Scott. A recent GAO report suggested a huge number of 
vacant positions: 40 percent of regional facility positions are 
currently vacant. Is that still true?
    Mr. Roessel. I would believe so at this point. BIA is not 
under my purview, but I don't think that we have made any big 
gains in hiring people.
    Mr. Scott. Is that affecting your ability to educate 
children?
    Mr. Roessel. Not directly at this point. What is affecting 
our inability is trying to get our staff--BIE teachers and 
principals--hired, and I think that is something that we are 
doing with quality people, and I think that is something that 
we want to do as we move forward.
    Mr. Scott. Mr. Mendoza, one of the things that we are 
finding on solving achievement gaps--one of the things we are 
finding is that the achievement gap doesn't happen in school, 
it happens outside of school--children starting out behind, 
summer slide, where they regressed during the summer, and other 
outside of the schoolhouse. What can be done to reduce the 
achievement gap by presenting a holistic approach to education 
rather than just a in-school approach?
    Mr. Mendoza. Appreciate the question, Congressman Scott.
    The challenges, as you mentioned, are needing a collective 
impact approach, and I think this is one of the not only tenets 
of how we have tried to respond to what we have heard from not 
only tribal leaders and educators, but that there is a shared 
responsibility, there are tribes who, like the Cherokee, are 
willing to resource more to, you know, really address those 
challenging needs that many of our American Indian and Alaska 
Native students are dealing with.
    And so our Native Youth Community Projects were designed 
with this focus in mind, to take culturally responsive 
approaches in a comprehensive way to provide for the kind of 
flexibilities that we have heard from tribal leaders and 
educators and to be able to apply those, whether those services 
are needed in school or out of school, but to keep focus on the 
college and career readiness that we know that those students 
will need to get to to not only aspire to complete, but to also 
get at, you know, the really core issue is jobs within Indian 
country.
    So through the Native Youth Community Projects, through the 
Promise Zones Initiative, much of the shared goals around 
building tribal capacity to do this work, and then the 
partnership components all, as I would frame as collective 
impact, are essential to creating much more different contexts 
than we have historically been involved with.
    Chairman Kline. Gentleman's time has indeed expired.
    Mr. Carter?
    Mr. Carter. Thank you, Mr. Chairman.
    And thank you, Dr. Roessel and Mr. Mendoza, for being here.
    Let me preface my remarks by sincerely saying that if at 
any time I appear to be disrespectful that it is not my intent 
to do that. But I have some questions for someone who--
truthfully, I have never even been on--to one of the tribes or 
visited your area, so I don't really understand it that well.
    But I just want to ask you, are there students who are on 
the reservations--do they have the option to attend a public 
school if there is one nearby?
    Mr. Mendoza. They do. And many reservations, as I said in 
my testimony, are--have public schools that--over that--well, 
all of them do. And so the vast--
    Mr. Carter. All--
    Mr. Mendoza.--the vast majority of Native students, 93 
percent, attend public schools. So any given reservation and 
upwards of 50 percent to 70 percent of their reservation 
population are attending a public school.
    Mr. Carter. If the performance, as you testified and as we 
have learned, the performance of the Indian schools are below 
that of the public schools, why don't we just let the public 
schools onto the reservations and have the public schools 
there?
    Mr. Roessel. I think the--when we have--you know, we have 
183 schools in our system, and 129 of those are operated by 
tribes. The reason tribes get involved is they are able to 
operate, so they are able to exercise their tribal sovereignty. 
They are able to teach Native language; they are able to teach 
Native history; they are able to teach Native culture.
    In public schools you don't have that same opportunity. 
Well, some schools do. Some districts do. But that is a big 
reason why tribes want to maintain that control of their 
education.
    Mr. Carter. And I understand that, and I am fully 
respectful of that, but if that option were there and if we 
made sure that option were there, wouldn't it make more sense, 
instead of duplicating something, to just try to incorporate it 
in there? And I am very respectful of the fact that you want--
and very thankful that you want to maintain your heritage, and 
I think that is extremely important. But it just appears to me 
that could be done through the public school system.
    Mr. Mendoza. So, Mr. Carter, I think that goal is a part of 
this comprehensive work. The way that tribes see this, and 
certainly Native students, is that language, history, and 
culture for any student--and this is what they have been 
telling us--is the foundation of their ability to succeed in 
all of the other areas that the world is working to advance. 
And the diversity that represents, the ways of knowing--
bringing--that they bring to those school systems, whether that 
is reflected in the Bureau of Indian Education schools or 
public schools, are the kinds of condition that we know are not 
only driving innovation and excellence for other areas of the 
country where we are bringing diverse perspectives to the 
country, but it is also addressing an economic imperative.
    You know, these are some of the most economically depressed 
concentrations in the country, and this should be a priority 
and focus for not only bureau-funded schools, but public 
schools as well. So the keys to success is having that 
reflected within the school systems, and that is where we are 
trying to bring partnerships together to address those 
challenges.
    Mr. Carter. I understand that. But it appears to me that it 
is much more of a problem than just the physical facilities.
    What about--tell me about your teachers. If a teacher on a 
reservation in an Indian school--do you only take teachers who 
are Indian?
    Mr. Roessel. Within our Bureau at Indian Education we have, 
again, those two systems. So one are federal employees, and so 
they are paid very well.
    Then you have tribal schools, and they don't only take 
tribal members. They will take the best-qualified teacher they 
can. Now, that is--
    Mr. Carter. But if that qualified teacher doesn't 
understand the heritage and culture and everything, then that 
is not doing what you want it to do.
    Mr. Roessel. Well, I think one of the things that happens 
with these schools on the reservations is they also then 
provide programs and opportunities to teach the teachers on the 
students. I think that is--
    Mr. Carter. Okay, that--and I don't mean to interrupt you. 
I understand. But the final question I have is exactly that.
    Do you ever take those teachers who are at the Indian 
schools and have them interact with the teachers who are at the 
public schools who are succeeding and we know that they are 
doing things that work, so that they can learn and take that 
back with them?
    Mr. Roessel. Yes, we do. And I think it is important to 
mention, too, that it is not that public schools are way up 
here at BIE. There is a school in Arizona, Tuba City Boarding 
School, and it is--across the street there is a public school--
high school. Tuba City Boarding School has made AYP 8, 9 years 
in a row. The public schools around it have not. Teachers that 
are teaching at the public school have their kids go to our 
school.
    So it is--what we are trying to do is take those successes, 
where we have them, and scale them up.
    What is it that they have there? They have strong 
leadership. They have strong professional development. They 
have these things that can help build. That is what we are 
looking at.
    I think to pit us against public schools--you know, there 
are very good public schools on reservations; there are very 
good BIE schools on reservations. How can we learn from both?
    I think the ability to have both--you know, we talk about 
school choice. Well, that is school choice. We talk about a 
tribally controlled school. What that really is a charter 
school. They have a federal system, and that is a tribal--a 
federal type of charter school in a way, so they are able to do 
different things.
    So I think it is wrong to say just public schools are doing 
so much better. I think there are pockets of success and we 
need to learn from both pockets. And--
    Chairman Kline. The gentleman's time has expired.
    Mr. Takano?
    Mr. Takano. Thank you, Mr. Chairman.
    Mr. Roessel, I represent Riverside, California, and I have 
Sherman Indian Institute in my district. Can you tell the 
committee--many committee members don't know that we have 
residential Indian--Native American schools. How many of them 
exist in our country? Do you have a number?
    Mr. Roessel. We have--trying to get the exact number here--
about 30 percent of our schools have residential programs with 
them, and we have standalone residential dorms that those 
students then go to public schools, and then we also have 
schools like Sherman that actually have a school and a 
residential program combined.
    Mr. Takano. So it is a boarding school. It is a boarding 
school.
    Mr. Roessel. Boarding school.
    Mr. Takano. How many of those boarding schools, like mine, 
exist in the country? There are relatively few, aren't there?
    Mr. Roessel. Well, like yours, that is from an area, there 
are five. I believe there are five--
    Mr. Takano. Five in the country?
    Mr. Roessel.--serve a large population. But we have quite a 
few across the system individually, like in Navajo and Akomas.
    Mr. Takano. But there are five that are like mine, that are 
like Sherman Indian Institute. And they--any Indian Native 
American or indigenous person can go to these schools if they 
find out about it, right? They have a right to go to one of 
these schools?
    Mr. Roessel. Yes.
    Mr. Takano. About how much money do we spend on these five 
schools?
    Mr. Roessel. I would have to get back to you on the exact 
number of that.
    Mr. Takano. Do you have a knowledge of how well the 
students are doing in these residential schools like Sherman?
    Mr. Roessel. A lot of our--
    Mr. Takano. And who--what kind of students tend to go to 
these schools?
    Mr. Roessel. A lot of our off-reservation boarding schools 
are coming from homes that are not the best and conducive for 
learning. Some are trying to get away from certain avenues. 
Some are court-ordered students. Some want to just try a 
different part of the country and attend.
    So you have a myriad of different types of students from 
many different tribal backgrounds, too. We have, I believe 
Sherman in Riverside. We have a Riverside school in Anadarko, 
Oklahoma and we have like 40 different tribes that are served 
there.
    Mr. Takano. So in general these schools tend to have 
students that come from backgrounds that are challenged. Is 
that fair to say?
    Mr. Roessel. Yes, that is fair.
    Mr. Takano. And that is--that tends to be the student 
population at these schools. Do you feel that they are 
adequately funded?
    Mr. Roessel. I think in the case--some of them I--it is 
difficult to say. The Sherman Indian School has a very 
progressive vocational program, and it is the best in our 
system.
    Mr. Takano. Partly funded by one of the local wealthy 
tribes.
    Mr. Roessel. Exactly.
    Mr. Takano. Yes.
    Mr. Roessel. One of the tribes. Exactly.
    Mr. Takano. Mr. Mendoza, I noticed that a lot of these 
students come from Navajo country. Do you know about this--do 
you know about Sherman Institute, and the student body there, 
and the fact that many of the students come from Navajo 
country?
    Mr. Mendoza. I do. I do. We actually had a large delegation 
from Sherman Indian School participate in our student 
environment listening sessions that we had in Los Angeles, and 
so we heard direct testimony from them about not only the 
challenges that they face in finding their way to an 
opportunity like Sherman Indian School, but the challenges that 
they feel like they have within that setting, and they really 
emphasized they are worried about where they are going next.
    And so I think to get back to Mr. Carter's point about the 
comprehensive nature of this work, it is absolutely essential 
for us to begin to look at not only how tribes are meaningfully 
involved in there, but also the individual student experience 
and the continuum that they move along.
    Mr. Takano. Given that these students come from challenged 
backgrounds, is there enough proprietary interest by the 
stakeholders in the governance structure?
    I have a lot of school districts that I work with, I have 
school boards that are elected, and they are local and I can 
work directly with them. But the struggle for me as a member of 
Congress who represents such a school--and I want to make it--I 
want to be able to create a school and encourage the 
development of a school that is truly a center of excellence 
and opportunity and to do the things necessary to connect them 
to the local community college, the University of California, 
whatever we have to do--to the private universities in the 
area.
    But it is elusive how to deal with a governance structure--
I understand that a lot of time there is not enough people for 
a quorum for the governance or that--it must be difficult to 
have governance from--of a school where the tribal members are 
kind of distant from the school itself. I mean, do you feel 
there is an--the governance structure is adequate?
    Mr. Mendoza. I think any governance structure, if it is 
leading to outcomes that raise concerns for us and we can 
identify areas where we can be better, I think that could take 
some work. And I know that we see that at the--through the 
study group, through the reforms that Director Roessel is 
putting in place. I think that is an acknowledgement that we 
can do things better for school districts. Certainly Sherman 
Indian represents that.
    We need to be purposeful about that. If we are going to 
change that, it takes education. It takes organization, and it 
takes providing the kind of supports that school boards need, 
ensuring that our teachers and our leaders are not only quality 
when we bring them into the institution, but if there is 
mediocracy there then we need to be addressing that.
    Chairman Kline. The gentleman's time has expired.
    We have--my colleagues on both sides are playing the ask-
the-question-with-15-seconds-left, and then we are getting the 
answer. And I want everybody to have their full 5 minutes so I 
am going to be a little bit more aggressive.
    And I apologize in advance to Dr. Roessel and Mr. Mendoza, 
if I stop you in the answer, because we have a lot of members 
that just want to ask questions.
    Mr. Takano. I apologize.
    Chairman Kline. I am just watching you.
    Mr. Russell, you are recognized.
    Mr. Russell. Thank you, Mr. Chairman.
    And thank you both for your testimony here today, and also 
your efforts that you do in trying to make this education 
better.
    In the course of the testimony it has come up that both the 
Cherokee and Choctaw tribes, which obviously we have Oklahoma 
ties to, have had some success in dealing with a lot of the 
educational concerns, largely due to good leadership and also 
tribal resources that are made available. So it shows that 
success stories can happen with good leadership and good 
resources.
    It seems that the streamlining of leadership and resources 
among the various agencies would focus the effort and give it 
more educational impact. If they were all under the BIE, Dr. 
Roessel, how would you change the current system?
    Mr. Roessel. All BIE schools, or--
    Mr. Russell. For the educational shortfalls that we are 
seeing, if you were given full responsibility, rather it--than 
it being dispersed among the various agencies, how would you 
fix it?
    Mr. Roessel. Well, I think one of the first things I would 
do is expand the participation of tribes. These are their 
students. This is their future. And I think too often in the 
past we have actually not provided a place for them to be in 
looking at the education.
    They are the ones that are closest to those students. They 
are their kids. And I think trying to bring them to the table 
and giving them the resources and capacity and the training to 
develop their own tribal ed department so they can be full 
partners, just like the state of Virginia can be a full partner 
in the education of their students.
    I think that is what I would do probably first and 
foremost, because then you are talking about them being able 
to--tribes being able to develop standards, curriculum, to be 
able to align what is most important. If they have more than a 
few schools in their--within their reservations, maybe they 
make one a magnet school, a school for the arts or a STEM 
school. It gives them the capacity to make those decisions on 
their own.
    And that is what I would do is try to say how can we try to 
build tribal participation up, build their capacity, and then 
move forward from there.
    Mr. Russell. With the limited resources on construction and 
seeing how it impacts everything, as a follow on, how would you 
prioritize that?
    Mr. Roessel. Well, I think the first priority has to be on 
the safety--the critical safety areas and needs, is 
prioritizing those. And right now the DFMC, Division of 
Facility Construction and Management, have done just that. They 
have a line item that is called ``facility improvement and 
repair,'' and they are targeting those most critical elements 
with that fund to try to make sure that, to the best extent 
possible, our schools are safer.
    Mr. Russell. Thank you for that.
    And, Mr. Chairman, my last question.
    Mr. Mendoza, can you specifically address how the GAO 
shortcomings that were identified with regard to staff, 
oversight, and data tracking are being fixed?
    Mr. Mendoza. I appreciate the question and the opportunity 
to speak to our role in trying to help the Bureau of Indian 
Education address some of the findings from the General 
Accountability Office report.
    One of the key things has not only been to work with the 
Bureau of Indian Education to begin to provide technical 
assistance--we have not only worked directly with the BIE, in 
terms of their capacity and trying to advise accordingly on the 
formula programs that they manage; we had, prior to the 
emphasis that has been represented under the secretary's 
commitment to address these areas, we worked with our risk 
management services, all of our program offices, and developed 
a corrective action plan that is quarterly advanced in 
relationship to any areas of concern.
    In terms of technical assistance on a broader level, our 
Office of State School Support, as it works with other states, 
you know, began--is in the process now of looking at some key 
areas of capacity for the Bureau of Indian Education as they 
have communicated those needs.
    On the school level, for the funded schools themselves, the 
issue of facilities, certainly technology and technological 
infrastructure, we have been able to partner with the BIE to 
get more clarity around how they can use annual formula dollars 
to be able to resource them and purpose them in ways that they 
might not otherwise have understood. So this collective effort 
is building that capacity that we are looking for and I think 
is in response to many of the findings in the GAO report.
    Chairman Kline. Gentleman's time has expired.
    Mr. Polis?
    Mr. Polis. Thank you.
    Dr. Roessel, as has been acknowledged for many years, 
Native American students have had some of the worst educational 
outcomes in the country and many of the problems cited involve 
schools and being plagued by bureaucracy and red tape.
    As you know, charter schools are public schools that 
provide flexibility from traditional rules and regulations that 
govern and sometimes strangle both public or Bureau of Indian 
Affairs schools. This type of flexibility allows charter 
schools to focus curriculum in specific areas, like science or 
math or Native American heritage.
    In this case, it could allow Native American youth to learn 
their own language and culture in school. How can the Bureau of 
Indian Affairs encourage high-quality charter schools on 
reservations and collaborate with national charter school 
organizations?
    Mr. Roessel. I think one of the first things is, as I 
mentioned earlier, the Bureau of Indian Education, we directly 
operate some schools--about 59 of them. The others are tribally 
controlled schools, which we call, in one word, a grant school.
    In many ways, if they were talking about charter schools 
back in 1988, when the Tribally Controlled School Act was 
passed, they may have called it a charter school. That--
    Mr. Polis. So just a quick follow-up question: So they have 
the type of autonomy where they choose their own staff, the 
length of their school day, their curriculum--the type of 
autonomy traditionally associated with the charter school?
    Mr. Roessel. Yes, sir.
    Mr. Polis. And go ahead, and so you are developing those 
and encouraging that type of autonomy?
    Mr. Roessel. I think we are encouraging that type of 
autonomy, in addition bringing the tribes into it so that they 
have that type of autonomy. And some tribes have come to us and 
said, ``Can we provide--you know, get a charter management 
company to come in and oversee our schools?'' And they have 
that opportunity if they so choose.
    So the Tribally Controlled School Act gives tribes and 
schools a lot of autonomy to move forward and create those 
curriculums and different approaches that they want.
    Mr. Polis. And is there an active process that a tribe can 
apply to--what is it called, what is the word you used, grant--
to become a grant school as opposed to be centrally run?
    Mr. Roessel. Yes, there is.
    Mr. Polis. Okay.
    Mr. Roessel. Part of an initiative that we just had our 
first year, and it is called the Sovereignty in Indian 
Education Initiative, and that is really moving tribes in a 
direction that they look at their school system in its 
totality, so they focus on the H.R. aspect, the finance aspect, 
governance, and academics, and they are able to be very 
creative. And we have had some really good results for the 
tribes. The interaction and collaboration between tribes has 
been--
    Mr. Polis. I also wanted to address the issue of LGBT 
bullying in schools. As you know, there are many students that 
are bullied simply because of their sexual orientation or 
gender identity. I wanted to ask what the Bureau of Indian 
Affairs is doing to prevent bullying against too-spirited or 
LGBT students and discrimination in the Bureau of Indian 
Affairs schools.
    Mr. Roessel. That is something that I think we can do more 
on. Within our system we--again, with this reorganization and 
restructuring we are trying to identify those areas that we 
have been lax in the past and what we can do as we move 
forward.
    Mr. Polis. Do you currently have an anti-bullying policy 
that includes bullying based on sexual orientation or gender 
identity?
    Mr. Roessel. Yes, we do.
    Mr. Polis. And so you will be working on some of the 
enforcement of that and the modification of that.
    The Bureau of Indian Affairs FY 2016 budget requests zero 
funding for juvenile education. No other federal program exists 
to assist at-risk Native youth who are adjudicated. How does 
the BIA plan to address the educational shortfall facing the 
most at-risk Native youth, including those who are juveniles in 
custody?
    Mr. Roessel. We fund--and one of the proposals moving 
forward--and Mr. Mendoza can probably speak to this in greater 
detail with Department of ED--but we have JDCs, juvenile 
detention centers, that are within the BIE system, and we are--
have a partnership and a contract with education providers to 
provide that education for them while they are in there.
    One of the things that we are also looking to do and have 
started this process is to actually share the data and 
information. When a child might be in a detention center, they 
may not come from that tribe where that detention center is; 
they may be in a different one. So if we share our information 
system we then can identify when there might be a child in a 
detention center that is off the reservation or outside of the 
area of a school.
    So we are trying to focus on first identification of them 
and making sure that we can follow them.
    Mr. Polis. Thank you.
    I yield back the balance of my time.
    Chairman Kline. Thank the gentleman for yielding back.
    Mr. Curbelo, you are recognized.
    Mr. Curbelo. Thank you, Mr. Chairman. I would like to thank 
you and Chairman Rokita for your attention to this very 
important issue, and of course, to the ranking members, as 
well. We are clearly failing many of these children, and I 
appreciate everyone looking for solutions.
    I had a question for Mr. Mendoza with regards to the 
structures that govern BIE. Department of Interior, in my view, 
is a department that is focused on issues mostly foreign to 
education, and perhaps there is a dissonance there between the 
BIE's mission and the department's mission.
    From your perspective, Mr. Mendoza, would it make sense for 
an agency like the BIE to be housed under DOE instead of the 
Department of Interior?
    Mr. Mendoza. Thank you.
    On the onset, this is something that has been discussed 
with tribal leaders early on in the administration. They 
wholeheartedly and without equivocation rejected the idea of 
any such move of the BIE from the Department of Interior to 
anywhere else, so I want to say that on the onset.
    The question is how do we improve the delivery of services, 
and irregardless of where we think that is situated within the 
federal family, we not only have a responsibility to ensure 
that our students--American Indian and Alaska Natives--whether 
they attend bureau-funded schools, tribally controlled, or 
public schools, are receiving a world-class education.
    And I agree with Dr. Roessel, this is reflected in our 
policies and how we jointly, the two agencies, worked to 
address this issue, that tribal leaders are the missing piece 
to what we are talking about in the governance structure of 
schools right now. How can we begin to create a system where 
educators are supported and tribal leaders are involved so that 
there is a shared responsibility in the tribal context--
reservation lands and tribal communities? And then how are we 
building that outwards?
    There are exciting things happening right now in states 
like Montana. Washington is on the cusp of that. We also have 
North Dakota looking at, you know, the coordination of 
essential understandings that makes it better for Native 
students to navigate these systems, but also gets at the added 
value of what they bring to the rest of our population in the 
United States.
    And so that is kind of the structure, and I think 
governance is key to that, as you have already pointed out.
    Mr. Curbelo. Well, I think we certainly should take into 
account the view of the tribes on this issue, but I certainly 
believe that at the very least DOE should be given a greater 
role. I mean, for all our criticisms of DOE--Department of 
Education--we recognize that it is the only federal department 
almost exclusively dedicated to ensuring that children in this 
country have access to a quality education.
    So I certainly believe that at the very least it would make 
sense to expand Department of Education's role in all of this.
    Thank you very much, Mr. Chairman. I yield back.
    Chairman Kline. Thank the gentleman.
    Mr. Jeffries, you are recognized.
    Mr. Jeffries. Thank you, Mr. Chairman.
    And thank the witnesses for their presence here today.
    Mr. Mendoza, can you drill down for me on the comparison of 
the performance of Native American students in BIE schools as 
compared to the performance of students--Native American 
students within the traditional public school system?
    Mr. Mendoza. Certainly. Appreciate it.
    We know that through the National Assessment for Education 
Progress, that in terms of that survey and that information, 
through the NAEP, that the gaps between American Indian and 
Alaska Native students that attend public schools and Bureau of 
Indian Education are certainly concerning. They are only 
incrementally different than public schools. And as I pointed 
out in my testimony, these are the worst indicators among many 
ethnicities.
    But, given that, we also see progress. And so the 4.7 
percent gain in graduation rates for American Indian and Alaska 
Native students overall in the adjusted cohort graduation rate 
represents a jump from 65 percent to 69.7 percent.
    We have also learned that early learning for Native 
kindergarten students are held back at nearly twice the rate of 
their white kindergarten peers. And then 22 percent of Alaska 
Natives in the higher education realm age 25 and older have not 
finished high school. And 39 percent of Native students who 
enrolled in a 4-year institution in the fall of 2004 completed 
a bachelor's degree by 2010, as compared to 62 percent of their 
white students.
    So these numbers on a national level are kind of our 
baseline information for the state of Indian education.
    Mr. Jeffries. Now, am I correct that on a given reservation 
it could be the case that you have some Native children who 
attend a BIE school and there may be others on that same 
reservation who attend a traditional public school?
    Mr. Mendoza. Could you repeat the question? Sorry, Mr. 
Jeffries.
    Mr. Jeffries. That there are some instances where on a 
given reservation you could have some children who attend a BIE 
school and others from that same reservation who may attend a 
traditional public school.
    Mr. Mendoza. Yes. Yes. The majority of students, as a 
matter of fact, if not a vast majority. Many reservations 50 
percent attend public schools; there are some 70 percent, 90 
percent is actually the norm rather than the exception.
    Mr. Jeffries. And in that circumstance, are there 
perceptible differences on a reservation-by-reservation 
standpoint? In other words, children on the same reservation 
presumably subjected to some of the same socioeconomic 
conditions or other factors that may impact an education--is 
there a perceptible difference on a reservation basis as to how 
those students might perform in a BIE school as compared to a 
traditional public school?
    And, Dr. Roessel, you could weigh in if you want to, as 
well.
    Mr. Mendoza. In general, it depends on the same kind of 
measures that any urban or rural comparison or suburban rural--
you know, I come from a state like South Dakota and the 
experiences in Montana, where Billings isn't the same as a 
Denver, Colorado, and neither is a Rapid City the same as a 
Minneapolis.
    And so it comes down to teacher quality; comes down to 
leader effectiveness; it comes down to adequate infrastructure 
and resources. And so there may be differences, but where we 
see those differences it usually amounts to one of those 
factors being stronger in one area or worse in another.
    There is high mobility among these students from those 
urban to suburban to urban, and so we see that being a 
challenge for these systems to not only track those students 
but ensure that where they left off, that the next system picks 
up on the experience of those students.
    Mr. Jeffries. Dr. Roessel, I think that the suicide rate 
amongst Native American teens is perhaps the highest of any 
population group in the country. I think it is more than 2.5 
the national average.
    You know, what, if anything, is being done to address this 
phenomenon specifically, and/or the underlying factors that may 
lead to such an alarming rate?
    Mr. Roessel. One of the primary factors, if you look at 
suicide rates for young people, is identity--where they fit in 
into the culture, into the community, into their traditional 
culture or the Western culture. And I think one of the things 
that I think BIE tribally controlled schools and BIE-funded 
schools really focus well on is bringing in that tribal type of 
education--talking about language, heritage, culture, history.
    That helps identify. Research shows that if a student knows 
who they are, they are less--they are going to be more 
successful, they are less likely to have problems.
    Chairman Kline. I am sorry, the gentleman's time has 
expired.
    Mr. Grothman?
    Mr. Grothman. Thank you. A few questions.
    First of all, on one of the sheets we have here I just 
wanted to make sure this is right. They talk about per-student 
funding for these schools, and they give us the last 4 years. I 
think the year we are about to begin they are anticipating 
$20,600 per child. Is that accurate?
    Mr. Roessel. No. That is not accurate.
    Mr. Grothman. Okay. What do you think the funding is per 
child on one of these--
    Mr. Roessel. I will use the GAO number, which said about 
$15,000, but it--and they said it was higher. But I would--also 
in the very next sentence they talk about the reasons why.
    Our schools have to also have a water department. They have 
to have a housing department. They have to have an EPA 
inspector. They have all these other things that most schools 
have within a municipality.
    So in our case with BIE schools, you have a lot of other 
needs because they are so remote. A lot of our schools predate 
the public school system in these very remote areas.
    And I think it comes back to Mr. Jeffries' question in 
terms of one of the reasons why is that these are in very 
remote locations where we have some of our schools, and so they 
have to do a lot of other things than just educate.
    Mr. Grothman. Okay. The numbers they give us here, they do 
say $15,000 for Bureau of Indian Affairs, but then they say the 
Department of Education is kicking in another $4,700. That is 
how they get over this $20,000 number.
    You know, some money coming in from Bureau of Indian 
Affairs, some money coming in from Department of Education. 
They say when you combine those they are well over $20,000. Is 
that possibly true?
    Mr. Roessel. Again, the part of the money is being used for 
things other than just education.
    Mr. Grothman. Okay.
    Next question: You said a lot of the kids are attending the 
public schools, but when you have a Bureau of Indian Affairs 
school are they still covered by state laws as far as licensure 
is concerned, mandated state tests, that sort of thing?
    Mr. Roessel. Most of the process that we have within our 
BIE is that we defer to the state from which the school 
resides, so yes. In terms of the graduation, most of our 
schools, because, as Mr. Mendoza mentioned, a lot of our 
students go from one school to another, they have adopted 
graduation requirements that are similar to the state so that 
they are not falling behind if they were to transfer to another 
school within their state.
    Mr. Grothman. Okay. Now, I mean, I assume, you know, like I 
said, we have this $20,000 figure, and they are saying about 
$4,700 actually from Department of Education and $15,800 from 
Bureau of Indian Affairs.
    I realize a lot of these schools are very small in their 
economies of scale, and I know smaller schools--but even then, 
even, let's say, $5,000 is going for something else. That has 
still got to be way over that national average per child.
    Is there some breakdown as to where this money is going, or 
the average amount spent per teacher per school, or is some of 
the money getting stuck up in the Bureau of Indian Affairs 
bureaucracy? How do you go through that much money? Still not--
    Mr. Roessel. Well, again, I think, I mean, I will--just 
look at the GAO report. They actually explain it that, again, 
when I say we have a water treatment center, when I was a 
superintendent of school I had to have my own water department. 
We had to do testing to comply to EPA standards.
    We had to have our own housing, so we had our own housing 
maintenance people. You know, so you have all these other 
things that a city would take care of if they had a school 
district.
    You don't have that in Indian country. They have to take 
care of everything.
    Mr. Grothman. Okay--
    Mr. Roessel.--fire department was also something we had 
to--
    Mr. Grothman. Yes.
    Mr. Roessel. Things like that.
    Mr. Grothman. I will give you one final question. There 
have been people trying to poke around as to why the test 
scores aren't that good, and people never like to talk about 
family and this.
    But it seems to me that normally when I talk to my teachers 
a lot of times the family has a big impact on how well the 
children are doing. And, you know, we have been through a 
situation in this country over the last 50 years in which the 
number of children in nontraditional families has grown 
through--because various federal programs encourage not raising 
children in a traditional family.
    Do you have statistics on the reservations or among these 
kids the number of children who have, say, a mother and father 
at home, rather than not a mother and father at home?
    Mr. Roessel. I don't have statistics, but anecdotally, we 
know that is happening and their--the families are large at the 
homes, so they have grandparents and parents and aunts and 
uncles. And so a child may not have their own room. So we know 
that anecdotally.
    Mr. Grothman. I don't understand. You say there are a lot 
of children in traditional family or are not?
    Mr. Roessel. I would say there are a lot that are not. They 
are very young families, parents that are very young.
    I know when I was superintendent the age of some of the 
parent-teacher conference participants were very young; you 
thought they were actually students sometimes. So you don't 
have that foundation that you might have.
    Mr. Grothman. Well, young--the young thing doesn't--
    Chairman Kline. The gentleman's time has expired.
    Ms. Bonamici?
    Ms. Bonamici. Thank you very much, Mr. Chairman. Thank you, 
Chairman Kline and Ranking Member Scott. This is an important 
hearing, an important issue.
    It is pretty clear that we have work to do both to improve 
the Bureau of Indian Education schools as well as addressing 
the educational outcomes for all American Indian and Alaska 
Native students.
    So Salem, Oregon, which is just south of the district I 
represent, there is the Chemawa Indian School. It has been open 
since 1880; it is the oldest continuously operating off-
reservation boarding school in the country.
    It has struggled over the years with budget deficits, and 
there appears to be a clear need for some improved federal 
support and oversight.
    And of course, Chemawa is not alone. There are too many, as 
we heard already, Bureau of Indian Education schools that are 
operating facilities that are in disrepair and need some work, 
and also produce graduation rates and math and reading scores 
that aren't what they need to be.
    But we also need to discuss the educational outcomes and 
the dropout rates that affect the more than 90 percent of 
American Indian and Alaska Native students who are enrolled in 
public schools. And I am glad we are talking--having that 
conversation, as well.
    Director Mendoza, you discuss in your testimony the STEP, 
State Tribal Education Partnership program. In Oregon the 
Confederated Tribes of the Umatilla Indian Reservation are 
participating, the confederated tribes in the Pendleton School 
District, and that partnership have yielded some promising 
results. The state, the local education agency, and the tribal 
education agency have collaborated on a new educator evaluation 
system, and that places emphasis on the students' culture and 
heritage.
    Can you discuss the preliminary results of the STEP 
program? Do we have information about student outcomes? How is 
that program working?
    And I do want to save time for a question for Dr. Roessel, 
as well.
    Mr. Mendoza. No, thank you for the question.
    The STEP program, when we came here to Congress in, you 
know, kind of the idea of it 2010, 2011, we were met with, you 
know, how is this going to work? You know, not only was there 
lack of faith and concern for whether or not tribes were ready 
to do this or whether states were willing to do this or vise 
versa.
    STEP is now, coupled with the Sovereignty in Indian 
Education Grant and the 2020 Grants that are on their way, 
really calling that question.
    Ms. Bonamici. How widespread is the use of the STEP 
program?
    Mr. Mendoza. Yes. So we have six tribes and four grants 
represented through there. It is a small amount, but this is 
how movements start. This is how tribal college and university 
movement, but 40 years, you know, dramatically changed the 
experience for Native education--
    Ms. Bonamici. So you would say that is an effective 
partnership?
    Mr. Mendoza. It is effective. It is tremendously effective, 
really popular. We just finished a webinar the other day that 
talked about the application process for STEP. Over 80 
participants were on the phone there.
    The tribes are working with their state educational 
agencies. State education agencies are building their 
capacities simultaneous to tribal education agencies, and we 
are getting to concrete outcomes--
    Ms. Bonamici. Terrific.
    Mr. Mendoza.--around what their--outlined in their 
programs.
    Ms. Bonamici. That is very encouraging.
    Mr. Mendoza. And it is only in its third year of funding, 
so we are really excited about this momentum.
    Ms. Bonamici. Terrific. Thank you so much.
    And, Dr. Roessel, I mentioned the Chemawa School in Oregon. 
They currently have a superintendent but at times they have had 
to operate without one. They have had challenges. It is just an 
example of the challenges that the BIE schools face retaining 
effective school leaders, and it is--I don't think that anyone 
would disagree that effective school leadership is important.
    So can you talk about strategies that have proved effective 
at recruiting and retaining school leaders and educators to 
work at the BIE schools? And if there are effective strategies, 
can those be replicated? And what might be some of the barriers 
that are preventing wider implementation of those successful 
strategies?
    Mr. Roessel. Thank you for that question. I think in terms 
of Chemawa, we are very excited with the superintendent that is 
there and the way she is turning that school around and really 
working well with the students.
    One of the challenges that we have in recruiting quality 
staff, whether they are teachers or principals or 
superintendents, is housing. Teacher housing is very difficult.
    I know we hear stories all the time, and I have experienced 
it myself, where we have hired a teacher. They drive out to the 
school, they see their house, they never even unpack their U-
Haul. They just keep driving because it is just so deplorable. 
So we need to try to repair those.
    I think one of the things that we have done, in partnership 
with ED, is the clarification that they have made for our 
schools of money that can be used to help renovate some of the 
houses that we have out in Indian country, so that is one of 
the big things I think that will--it is a little thing but it 
has a big impact if you can have a good teacher there as 
opposed to starting school without a teacher.
    And so I think the other thing, too, is that we need to--
with HUD we have a $10 million in the '16 budget to try to 
build new teacher housing, also.
    Ms. Bonamici. Thank you.
    My time has expired. Thank you.
    Chairman Kline. Gentlelady's time has expired.
    Mr. Brat, you are recognized.
    Mr. Brat. Thank you, Mr. Chairman.
    Thank you all for being with us today. I just have a couple 
kind of big, 30,000-foot kind of questions. You are kind of in 
a unique situation where you have the ability to envision your 
future, and we want to help.
    And so at the end of the day, our public school systems 
face huge challenges with the vision problem. They want to pack 
everything into the curriculum, right?
    And so we want to do the skills stuff, the STEM stuff, the 
fine arts get left behind a lot of times. We want to teach kids 
about business. They graduate high school without even knowing 
what a business is sometimes.
    Parents have multiple objectives in their mind, right? They 
want success in business, but they also want, you know, 
reading, writing, and arithmetic skills inculcated.
    And so just so we are on the same page, I mean, what is the 
vision you have for these kids? At the end of the day, when 
they graduate from high school, what do you want to see?
    I mean, if you could have it, your dream, ideal education--
because you talked about your culture and history and all that. 
I am hugely in favor of that. Without meaning and passion in 
their life the kids don't even know why they are studying.
    So at the end of the day, what is your vision for what you 
want for these kids at the end of, say, high school?
    Mr. Roessel. I think one thing is that they would be in a 
position to make a decision and not have a decision made for 
them, so that they can say, ``I want to go to college,'' or 
maybe in some cases, like when I was at Rough Rock I had a 
graduate who said, ``I want to become a medicine man. I want to 
learn my grandfather's ways.'' That is just as successful. And 
he was accepted to colleges.
    So I think it is giving them the tools that they can make a 
decision, and that is reflective of who they are, where they 
come from.
    Of course, it has to have reading and writing and math to 
be successful today. But you have to know who you are.
    And when you come from a tribal school, when you come from 
a tribal community, when you talk about education you are 
talking about nation-building. You are talking about 
sovereignty.
    So they come in and it is about survival. But when they 
leave it is about identity. And so I think that is what I would 
see as a vision for our BIE system or any system that deals 
with Indian students.
    Mr. Brat. Any difference or--
    Mr. Mendoza. No. I think we share a lot of that in common, 
and I think I would add--maybe Dr. Roessel is saying the same 
thing--opportunity, making sure that they, in their foundation 
of who they are, they know that that's been--it is certainly 
absent, but throughout history has been, by no fault of their 
own, and their parents, and others, torn from them, if not 
purposefully targeted for elimination.
    And so they need that in order to provide for a foundation 
of these other areas that I know that they would want to seek 
opportunities in math, language, science, you know, all of the 
other fields that every other youth in this country aspire and 
dream about, but they want to know who they are. And they know 
that their family members have a lot to contribute to that, and 
right now they are not--at least in--out beyond the tribal 
colleges--or tribal--tribally controlled schools, they are not 
seeing that in the systems that they navigate.
    So they want to come back to their communities, just like 
rural Bozeman, Montana, other places like that. And so they 
want to see their communities thrive and grow in healthy ways.
    Mr. Brat. Good. So that is how--and then, so the vision 
thing is pretty standard. Most parents have said similar. I 
just wanted to make sure. So that sounds like the standard 
American dream kind of thing, getting the skills and being able 
to make choices and being prepared.
    And then up here, I mean, we used to have this thing called 
the 10th Amendment to the Constitution--that is kind of an 
inside joke--where we would--states and localities were 
responsible for education. Now everything goes through D.C. and 
it is ineffective.
    So when you look at the structure, you are in a unique 
place where you can kind of dictate a different kind of 
structure if that is good for you. What do you see as the 
structure you would favor if you could just start from scratch, 
right? Have a tribe, local, state mandates, federal mandate--
what is getting in your way and what kind of structure would 
you conceive of if you are just starting from scratch to get it 
right?
    Mr. Roessel. Well, I think the current structure within 
BIE, I think there is the opportunity, through the tribal 
grant--Tribally Controlled School Act, to allow--I don't think 
it is for BIE to say, ``This is the structure,'' and I don't 
think it is right for the Federal Government to say, ``This is 
the structure.''
    I think it is right for the tribe to say, ``This is the 
structure I want,'' to create that outcome that we talked about 
earlier, that vision. So I would assume it would look different 
at different tribes, just like local control looks different 
all across this country and how it is exercised.
    But I do think that there has to be accountability, and I 
think that is what tribes are looking at right now: How do we 
ensure that we get that vision, that we don't just put money 
into a school and we don't get where we want to go?
    And so I think the structure is accountability, and I think 
that is the word that we hear all throughout, you know, in 
education. But tribes have not had that role in accountability. 
Giving them that role in accountability, I think through the 
STEP grant, through our Sovereignty in Education grant, gives 
them that opportunity to build from there.
    Chairman Kline. Gentleman's time has expired.
    Mr. Brat. Thank you, Chairman.
    Chairman Kline. Mr. Grijalva?
    Mr. Grijalva. Thank you, Mr. Chairman. Thank you for the 
hearing.
    Mr. Mendoza, if I may, in the initiative and in the process 
of looking at Indian country and the first Americans in a 
comprehensive way, one of--I--in my opinion, one of the most 
glaring examples of historical neglect--is education. Whether 
it is a traditional public school, a charter school, a for-
profit school, a tribally controlled school, there--the 
statistics we are seeing about Indian education is not 
particular to the 7 percent BIE schools. It is reflective of 
the entire education outcomes for Native students.
    Tell me about what the comprehensive need is to look at 
this in the totality. Today we are dealing with one part, but 
there is a totality here that we are not talking about, and it 
is glaring, and it is not a good picture. So if you wouldn't 
mind, in terms of the initiative, looking at it collectively.
    Mr. Mendoza. Yes. Well, I--again, if I keep saying it over 
and over it is because every time I step in front of Native 
youth and elders and tribal leaders it is the first thing that 
they say to us is that we not only lack a meaningful role in 
the education of students, but it is not rooted in the 
foundation of language, history and culture.
    And whether the circumstance is on a reservation in Pine 
Ridge, South Dakota, or an urban Native center such as the 
secretary visited in Denver, Colorado, they wouldn't change it 
for a world if it meant that it cost them their identity. 
Whether it is strong or as fractionated as it can be, that 
collective bond throughout history and how it is going to be 
moving forward is that they need that in order to succeed in 
the world around them. So they will hold on dearly to that.
    Mr. Grijalva. Yes.
    Mr. Mendoza. So as much as educators, much as decision-
makers such as ourselves can honestly say that needs to be a 
starting point, that needs to be the case if we are going to be 
able to address these challenges for these students.
    Mr. Grijalva. I think it is part of the education. You said 
it very well, that identity is critical to success.
    And, you know, after decades upon decades of forced 
assimilation with no other option and no retention of one's 
culture or language, there's going to be outcomes and they are 
not good. And I think we have to lay that premise on the table 
in the discussion of Native education as a whole before we 
start looking at parts.
    If I may, Doctor, consultation and sovereignty. 
Consultation as a mechanism for involvement of tribal 
leadership in the decision-making role that they want, and the 
issue of sovereignty in terms of being able to craft and design 
what they think the curriculum should be for the students that 
they represent.
    Those, I think, are key, particularly consultation, as part 
of the trust responsibility. Is that an effective--is that 
being used effectively, in terms of how we bring tribal 
leadership and tribes into the decision-making?
    Mr. Roessel. I think it will be.
    Mr. Grijalva. Okay.
    Mr. Roessel. I think as we begin that process I think, 
again, you can invite someone to the table, but if there is no 
role for them, they are not going to know what to do. And so I 
think right now what we are looking at is we are defining that 
role.
    We are looking at saying, okay, the tribe is there, ``What 
do you want?'' The same question that was asked earlier: ``What 
is your vision?''
    Having that turn around, and with our Tribal Education 
Department grant that was recently funded, that's going to 
allow tribes the opportunity to ask that question: What do we 
want? What is our vision for education within ourselves? And 
then what do we need to do to get there?
    And so I think one of the things that BIE is doing is 
moving away from a direct provider of education and to a school 
improvement agency so we support the tribes, we no longer 
dictate to them. And that is where we are going with our 
reforms.
    Mr. Grijalva. I think the joint memorandum between ED and 
Interior is a good starting point because I think it provides a 
way to look at this comprehensively, as Mr. Mendoza indicated, 
and make--have some roots to what is being done.
    The last question, just because it is about resources--
little magic too--you have got to--resources are needed. You 
mentioned creating a plan for school construction based on the 
Department of Defense, since it is--which the Defense 
Department has done successfully.
    Could you speak to the different funding levels between the 
Department of Defense and Interior with regard to education, 
facilities, school construction, et cetera?
    Chairman Kline. Unfortunately, you will have to answer that 
for the record. The gentleman's time has--
    Mr. Grijalva. It was a good question.
    Chairman Kline.--they are all good questions.
    Mr. Rokita, you are recognized.
    Mr. Rokita. I thank the Chairman. I thank you for holding 
this important full committee hearing that is a follow up to 
the hearing our subcommittee had 2 weeks ago on this. These are 
important issues. We are getting to the heart of it now.
    I want to start by thanking my friend, Mr. Roessel, for 
appearing before this committee this morning. In March together 
we toured two BIE schools on the Fort Apache Reservation in 
Arizona, and I certainly learned a lot.
    I want to thank you for your service. And I don't say that 
to other directors, necessarily, that sit in your chair, but 
the fact of the matter is the BIE has named 33 directors in the 
past 36 years, and you are one of the longest-staying 
directors.
    I can tell that there is passion in your work and you care 
about what is happening and what you are doing, so I will 
encourage you to continue that. We need your leadership.
    Mr. Roessel. Thank you.
    Mr. Rokita. Some of that 33 in 36 years might--may be 
because of the restructuring that has taken place a number of 
times at the Bureau of Indian Affairs, and I want to know your 
opinion, Mr. Roessel, how those--if those restructurings 
improved or hurt the school system in the delivery of services, 
and how--your testimony accounts for a lot of restructuring 
that you want to do in the BIE--how is yours going to be 
different?
    Mr. Roessel. Well, I came into this position with a lot of 
these reorganizations kind of piled on top of each other.
    Mr. Rokita. Yes.
    Mr. Roessel. I think when we started our reform effort we 
really tried to get to the root of it and not do another 
cafeteria-style reform, where let's just pull some more and put 
it on our tray. Try to get to the root cause. The root cause 
is, one, our buildings are falling down, and our instruction 
needs to be improved.
    So starting from those two points, I think we have really 
tried to address how we make that change. If everything is 
targeted in that classroom, I think we have a better chance 
up--of finding our success, and that is what we really try to 
do. How do we support the teacher, get new teachers, and 
improve--
    Mr. Rokita. So the previous restructurings, as obvious as 
it sounds, what you are saying, the previous restructurings 
didn't have that focus?
    I will take that as a no.
    Mr. Roessel. I don't think it had--I don't think it--again, 
I think it piled things on. It didn't clarify the roles; it 
added roles. And I think when you add more duties to people it 
made it muddier.
    Mr. Rokita. Okay.
    Mr. Roessel. And I will say that, and I think we are trying 
to clarify and clear it up, things that have happened over the 
last--you know, I mean, just look at our success of BIE. We 
have not had success. And so when an organization has not had 
success, sometimes you wait for that perfect plan--
    Mr. Rokita. And it never comes.
    Mr. Roessel.--and we can't afford that. Our kids deserve 
better.
    And so this plan that we have right now I think addresses 
the fundamental issues, and that is instruction and improving 
it in the classrooms.
    Mr. Rokita. And if asked, you will stay to carry out that 
plan.
    Mr. Roessel. Yes.
    Mr. Rokita. Thank you.
    During our time together in Arizona and my subsequent 
visits to other schools in other states, it became clear that 
there are a variety of approaches to running the schools and 
addressing the issues that arise. What technical assistance 
does the BIE provide to support the tribes that are struggling 
to adequately serve their students, and what is the current 
process, if even one exists, for sharing best practices amongst 
the different schools?
    Mr. Roessel. I think within our reform and creating the 
education resource centers, that will provide us the 
opportunity to have schools--not just a single school, but a 
group of schools to collaborate. So many of our schools are so 
small that it--we only have one teacher per grade level. So if 
you had a professional development on reading skills or 
decoding, you would only have one teacher working together.
    So what we are trying to do is bring a collaborative 
impact, so get schools together that can work together so you 
have three or four or five or more third grade teachers that 
are focused on learning.
    So I think one of the things is that--is really trying to 
provide that support to the school, to the tribes, to the 
teachers in a way that we haven't done in the past.
    Mr. Rokita. Do you share best practices?
    Mr. Roessel. Yes.
    Mr. Rokita. And you are the facilitator of that?
    Mr. Roessel. We would--that is what we want within our 
education resource centers.
    The other thing we are doing is we have really upgraded our 
communication outreach. We are providing links and an avenue 
for our teachers to talk amongst each other and with each 
other.
    It hasn't been like that in the past. One school wouldn't 
know what another school was doing.
    Mr. Rokita. Yes.
    Mr. Roessel. Now we are trying to build those links.
    Mr. Rokita. Great. Thank you.
    Mr. Chairman, my time is about to expire so I will yield 
back. First time in history.
    Chairman Kline. I thank the gentleman.
    Ms. Adams, you are recognized.
    Ms. Adams. Thank you, Mr. Chair.
    Mr. Ranking Member, thank you, as well.
    And thank you, gentlemen, for your testimony.
    Poverty is a challenge facing a large number of American 
Indian and Alaskan Native students, which affects about one-
third of students in that group. And studies have shown that 
poverty has a direct impact on a child's readiness on their 
ability to learn and the likelihood of dropping out.
    I understand, Mr. Mendoza, that the Department of Interior 
has initiatives to address the dire conditions of schools, but 
what, if any, initiatives are underway to address the poverty 
rates among these youngsters?
    Mr. Mendoza. Appreciate the opportunity to expand on some 
of that.
    I think one of the priorities for the administration in 
this area is certainly early learning, and through our 
preschool development grants in looking at how we can provide 
access, the President's budget request does allow for the 
Bureau of Indian Education and tribes to have access to those 
important grants. That is a foundation that, you know, $7 on--
return on investment on every dollar, and we know how critical 
that is for early learners as a whole, and especially in Indian 
country, where there is such a challenge on that early start, 
that is an important piece for us.
    The other areas that we have been focusing on is not only 
the formula dollars that go to provide for the unique academic 
and cultural needs for Native students through Title VII, but 
also addressing teacher leader corps through our professional 
development grants. These dollars get at that instructional gap 
that is the point of Director Roessel's comments around the 
shortages that they face.
    We have over 900 teachers that have been a part of that 
program since its development. Over half of these teachers are 
in the process of payback, in terms of the work side of it, and 
so continuing to strengthen these programs is essential. Many 
of them are grow-your-own programs from tribal colleges and 
universities.
    In our Native Youth Community Projects we are providing for 
comprehensive ways that both tribes, state educational 
agencies, institutions of higher education can provide for a 
diverse array of comprehensive strategies in school or out of 
school to be able to address in a community-based approach 
these kinds of multitude of issues.
    So through the development of a needs assessment, you know, 
designing those strategies could be diverse--could be 
addressing counseling, could be addressing early learning, 
could be addressing Native language revitalization and 
preservation. So these are some of the mechanisms that we call 
upon.
    Ms. Adams. Okay. Thank you.
    Dr. Roessel, given that the education standards set for BIE 
schools are set by the Department of ED, can you speak to the 
level of coordination that takes place between the Bureau of 
Indian Education and the Department to ensure that these 
programs are administered effectively?
    Mr. Roessel. I think one of the things that we have had as 
a goal as we started this reform effort is how do we try to 
increase that coordination and collaboration with all entities, 
and in particular, the Department of ED. In our proposed 
reorganization, the senior management of our Department of ED 
funding, that team that oversees special ed, that team that 
oversees Title I, will be moving back to D.C. from currently 
Albuquerque to continue that coordination and to be closer to 
where they need to be in order to have that collaboration with 
the Department of ED.
    So it has been a foundation as we move forward to make sure 
that we continue that collaboration, you know, either at the 
D.C. level and also out in the field. So that same staff now 
will be closer to our schools also in our realignment. So we 
are trying to ensure that we keep that coordination not just at 
the upper levels, but also down at the school level where it 
really makes a difference.
    Ms. Adams. Thank you, gentlemen.
    Mr. Chair, I yield back.
    Chairman Kline. Thank the gentlelady.
    Mr. Allen?
    Mr. Allen. Thank you, Mr. Chairman.
    And I am proud to say that my grandmother on my dad's side 
was a descendant of the Cherokee Nation, and of course she 
was--played a critical role in my dad's life. My dad was the 
first in his family to attend college and graduate with a 
degree, and he told me often what she meant to him.
    Unfortunately, I never knew her because she passed away 
before I was born. But I am proud to have that heritage.
    Certainly, you know, I have looked at some statistics as 
far as the unemployment rate. For members of the American 
Indian community it is about double what it is nationwide, and 
obviously the reason--at least I learned at an early age that 
we wanted to get an education was so we could get a good job. 
And I have had the privilege of providing folks, through my 
business career, with jobs.
    So, you know, what we are trying to find out here is how we 
can change what is going on, and, you know, one of the 
criticisms I guess is who is actually in charge here? In other 
words, if you could walk me through the organization of the 
Bureau of Indian Education and the Bureau of Indian Affairs and 
the Deputy Assistant Secretary of Management and how their 
responsibilities either overlap or how they work together, and 
like I said, who is in charge and who do we need to look to as 
far as accountability.
    Dr. Roessel?
    Mr. Roessel. Okay. Within Indian Affairs you have the 
assistant secretary and then you have the deputy assistant 
secretary for management. They oversee the--we call him DAS-M--
oversees the contracting, facilities, and different areas like 
that at a higher level, and then you have the BIE and Bureau of 
Indian Education, and we take care of just the educational 
portion.
    Currently, for any of the contracting or facilities or 
I.T., we do not have that under my jurisdiction right now. But 
in our proposal, in our restructuring and realignment with the 
Secretarial Order 3334, those areas will fall under BIE, so we 
will have the ability to have our own people talk and be able 
to build budgets for facilities, build budgets and implement 
I.T. at the school level so that teachers have the resources 
they need, as well as our information system that with 
contracting we will now have the ability to ensure that 
textbooks are in the classroom on the first day of school.
    H.R. will also be a part of--with this new reorganization--
will come under us. So we will ensure that teachers are in the 
classroom on the first day of school and not on the last day of 
school. So--
    Mr. Allen. So we are addressing--
    Mr. Roessel. We are addressing--
    Mr. Allen. Okay. Is there a timetable on this--on trying to 
accomplish in--so we can look to someone for real 
accountability in this?
    Mr. Roessel. The Secretarial Order 3334 has a timetable of 
being implemented by September 30th of this year.
    Mr. Allen. Okay.
    Mr. Roessel. We want--I want it to be done earlier so we 
can be ready for school year. Will it be fully implemented by 
the beginning of this school year? No. But I think parts can be 
and we can then start achieving the outcomes that we think we 
need in those areas that we no longer--or we don't have control 
over right now.
    Mr. Allen. Well, thank you. And let us know how we can help 
you accelerate that, because obviously we need to do that.
    You talked about the state of the facilities being 
dilapidated and whatnot, and the President requested $1 billion 
in his budget for the Native American education, pretty much 
for facilities. And then in past funding requests there was not 
funding provided in the President's budget for school 
construction. Can you tell me why we are, you know, why we are 
at this point and exactly why we haven't looked at this before?
    Mr. Roessel. I was not here for the previous budgets, but I 
think right now a big part of the focus is, you know, we are 
where we are and how are we going to get out of it? And I think 
that has been the big focus that we have had.
    Secretary Jewell has had laser focus and commitment to try 
to improve education outcomes for Indian students, and the 
President has supported that. And I think right now what we are 
looking at is how do we try to build out of that.
    I think we are looking at that with the 2016 budget, 
finally complete that 2004 list, so we are looking forward, in 
addition, expanding the ability to provide new facilities by 
component or total school. So I think we are looking at trying 
to create a plan forward, and that is the focus now.
    Mr. Allen. Okay. Well, thank you, Doctor.
    My time is up. I yield back, Mr. Chairman.
    Chairman Kline. I thank the gentleman.
    Everyone has had a chance to ask questions, but we have had 
some requests for a little follow up. I know that Mr. Grijalva 
asked a question and I cut him off, so we are going, without 
objection, we are going to--I am going to recognize Mr. 
Grijalva for a couple of minutes to get that. Mr. Grothman had 
a follow-up question, and Mr. Rokita did.
    So I would think this whole thing will only last 6 or 7 
minutes, but I want to give them a chance because they will 
plague me if we don't do this. So without objection, that is 
what we will do.
    And, Mr. Grijalva, you are recognized to repeat briefly 
your question so they have time to answer.
    Mr. Grijalva. Thank you very much and, Mr. Chairman, thank 
you for the courtesy. Appreciate it.
    I was talking about a helpful comparison to make. Since the 
Federal Government really operates two school districts, BIE 
and the Department of Defense, the helpful comparison I was 
looking for is comparing the amount of money allocated or used 
for school constructions at Department of Defense and the 
Bureau of Indian Education.
    Doctor or Mr. Mendoza, whomever.
    Thank you, Mr. Chairman.
    Mr. Roessel. What we have tried to do--is take those 
lessons learned from Department of Defense and transfer them 
over to our approach with facilities. The former director of 
Department of Defense is on our team, and we are in the process 
of helping--or she is in the process of helping us develop a 
long-term strategic plan much like they instituted at 
Department of Defense.
    I do not know how much money they got at Department of 
Defense. I do know, and we do know, and everyone knows $1.3 
billion is what has been identified to fix this problem. That 
is not going to come overnight. We know it is going to have to 
be a plan in the future and it is going to have to be a joint 
effort by the administration and Congress as we move forward.
    But we are hopeful to provide a plan to everybody so that 
we know exactly where we are going and when we expect to get 
there, and that is the completion and the updating of all our 
school buildings.
    Mr. Mendoza. I think I would just add that there are two 
completely different contexts as well, and I think that is 
important. There was a previous kind of point that I felt like 
I wanted to make around this that, you know, work in Indian 
country, infrastructure in Indian country is expensive. You 
know, you get 100 percent, 150 percent increase for crossing 
reservation boundaries because of the capacity there.
    So in addition to the multitude of challenges that Director 
Roessel pointed out, it is not only a different context but a 
different history as well. And so the growth of those systems, 
the changes, the fragmented kind of ways that Dr. Roessel 
pointed to in trying to address those challenges is a part of 
the reality of what Director Roessel is currently trying to 
unravel, and the secretary is trying to play an appropriate 
role in that from the standpoint of ESEA and other resources 
around the administration.
    Chairman Kline. Thank you. The gentleman's extra time has 
expired.
    Mr. Grothman, you are recognized for a couple minutes.
    Mr. Grothman. Yes. Just a follow up on my past questions: 
First of all, again, it says here total per-student funding of 
$20,500 broken down $15,000-plus from BIE, another $4,700 from 
the Department of Education. A lot of public schools that I am 
familiar with pay for their own sewer and water if they are in 
the country, so that is not an unusual thing or particularly 
expensive things.
    Could you elaborate on these high costs and maybe 
eventually get this committee maybe the finance statements from 
some of those Bureau of Indian Affairs so we can get a handle 
on how you can spend over $20,000 a child and not have enough 
to repair the roof. See what I am saying? Because most of the 
schools that I am from, $11,000, $11,500.
    I realize you don't have that great attendance so there are 
economies of scale, but could you elaborate on it again and 
maybe afterwards get this committee just, boom, pick out some 
of the BIE--the bigger BIE schools here and say, ``This is the 
money we are getting in; this is where it is going,'' so we 
know where the money is going. Because for over $20,000 a child 
there shouldn't be a financial problem.
    Mr. Roessel. I will be happy to do that.
    Mr. Grothman. Okay.
    Mr. Roessel. I dispute the total number.
    Mr. Grothman. Okay.
    Mr. Roessel. I think it is very easy to add all the numbers 
up and then divide by the number of students, but that is not 
really a comparable rate because you also have--each of those 
tribally controlled schools have their own administration that 
is a portion of that, so you are lumping in a lot of money.
    One of the things is, again, as we look at our school 
system our transportation cost is much higher. Many of our 
schools are on dirt roads. The turnaround on buses, the ability 
to keep them, you know, operating, as some of your colleagues 
when they visited Little Singer School know all too well, the 
dirt roads. That has a huge impact on the turnaround.
    The gas, as Mr. Mendoza mentioned, in terms of the oil and 
the boilers and things like that--a lot of these are old 
systems so the cost to keep them up is very high. So you have 
people that--like the school I was at we had a boiler operator, 
you know, somebody that knew things, and he really worked with 
just, you know, bailing wire and duct tape on an old system. So 
you had these things breaking down all the time. They have to 
spend money on those items.
    So I think, you know, when you look at transportation 
costs, when you look at, you know, sewer, when you look at a 
fire department--the school I was at, I had my own fire 
department, so a fire truck and the upkeep and all of these 
things that came with it. Those are things that most schools do 
not have. They are separate.
    And I think, you know, it is very easy to make the general 
statement, but I think if you start looking at the remoteness 
of the schools, the quality of the school buildings, looking at 
what they have to provide, you know, the--we had our own 
security--expanded security office because we were so remote.
    These different areas I think you look at, and that brings 
that number down considerably--
    Chairman Kline. The gentleman's time has expired.
    Mr. Rokita, you are recognized for a couple minutes for 
your follow up.
    Mr. Rokita. Again, I thank the Chairman.
    I didn't get a chance to ask Mr. Mendoza any questions. I 
would like to now.
    Mr. Mendoza, you are familiar with the Johnson-O'Malley 
programs, right?
    Mr. Mendoza. Yes.
    Mr. Rokita. Education has been the primary user of those 
programs, where Native American children who go to public 
schools, those schools can get reimbursed for some of those 
expenses, and also parents of those students have a larger 
voice than perhaps usual in that public school.
    It has taken 20 years to get an accurate head count. Are 
you satisfied with that, as a representative of the 
administration? And what can you do to fix it quickly?
    Mr. Mendoza. Well, I think the more appropriate person to 
answer this question would be Dr. Roessel, since Department of 
Interior administers the Johnson-O'Malley program. I think from 
the effect that it has on public education, we have a deep 
interest in the comprehensive nature that I outlined within my 
testimony and through some of the question and answer today on 
not only the health but the vitality of the Johnson-O'Malley 
programs, because they target public school students, and so--
    Mr. Rokita. Thank you. I can probably get to Dr. Roessel 
quicker than I can to you, so let me take the last minute and 
ask a follow up there.
    When you met with the tribal leaders about moving BIE out 
of Interior, did you also talk about moving Johnson-O'Malley 
out of Interior to Education and is there an opinion there? And 
what is the administration's opinion on that--on such a move?
    Mr. Mendoza. I would say that was a--that was not an 
explicit part of the conversations that I recall early on, but 
that they assumed that would be a part of it. And so their 
protection of not only the trust responsibility that Department 
of Interior currently holds for that and any extension of that 
to the Department of Education was one that they wanted to see 
action and, more importantly, results.
    And so whether it is Johnson-O'Malley, whether it is Title 
VII, the tribal leaders want to see more meaningful involvement 
and how they could have a stronger role in the education of 
their citizens and the state citizens, as well. We cannot 
forget that these are state--are citizens of their states, and 
so in that sense there is a shared responsibility for these 
students.
    Chairman Kline. Thank you very much.
    We have now had every one of my colleagues has a chance or 
maybe a chance-plus, so we are about to close the hearing, but 
I would like to yield to the Ranking Member, Mr. Scott, for any 
closing comments that he may have.
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    Mr. Chairman, we are just looking at some data we have. It 
looks like the Department of Defense is getting significantly 
more money to build their schools in spite of the fact that it 
apparently costs more to build them on reservations. That is 
not complete, but we will get the exact figures.
    It is obvious, Mr. Chair, that the Bureau of Indian 
Education is making progress, but the status quo is not 
satisfactory. We need to follow up with the budget requests to 
make sure that the agency is getting sufficient resources, but 
we also have to follow up with the Department of Education to 
make sure that the 93 percent of American Indian and Alaskan 
Native students get the quality education they deserve; 
approximately 93 percent are in public schools, and there is a 
huge achievement gap there that needs to be addressed.
    So I appreciate you holding the hearing and I yield back.
    Chairman Kline. I thank the gentleman.
    I thank the witnesses. It really was a terrific panel, as 
we had anticipated.
    This has been a knotty problem for a long time. I think 
that we all recognize that.
    I was just looking here at the Snyder Act, 1921, where the 
Bureau of Indian Affairs is directed to do a number of things--
spend money, and direct, supervise, and for all sorts of 
things, including general support and civilization, including 
education. So the federal government's tasks have been around 
for a long time, and it gets complicated sometimes by 
individual treaties and other legislation and so forth.
    But the bottom--at the end of this process we still have 
children going to schools that are not even safe. And so we do 
need to get to the bottom, and the questions a number of my 
colleagues--to you particularly, Dr. Roessel, you are the 33rd 
in 36 years, director, and there have been gosh knows how many 
reorganization plans. You talked about them stacking up and 
adding more responsibilities.
    It sounds in your testimony like you are really, really 
trying to clean that up and get a plan that will work, a plan 
for a structure and moving the responsibility for construction 
into the BIE instead of somewhere over here. And so that leads 
to the question that Mr. Allen had, well, who is in charge?
    Again, not to blame. We are all to blame in some degree. 
But what are we going to do about it?
    And so we are very, very anxious that your new organization 
succeed and that your plan succeed. And then the plan, when you 
are fully responsible here, to address the deplorable 
conditions in these schools--literally falling-apart schools--
well, that plan can't just be something that sits around since 
2004 and nobody knows how to execute it or get it done. In the 
meantime, you had whole classes--whole classes have gone 
through school--certainly through high school--in northern 
Minnesota shivering.
    So we will be looking forward to a successful 
reorganization and to seeing the plan to address these schools 
as soon as you can get it.
    And, Mr. Mendoza, thank you very much. It is good to have a 
representative from Department of Education.
    We get a lot of chance to talk with the Department of 
Education. Not so much with the BIA and BIE. But we clearly 
have an education problem here and we, I think in a very 
bipartisan way, are determined to get to the bottom of it.
    So thank you very much. I appreciate your presence here 
today and your forthright answers to the questions.
    There being no further business, committee stands 
adjourned.
    [Questions submitted for the record and their responses 
follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Responses to questions submitted for the record follow:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
     
    [Whereupon, at 12:25 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
